<html>
<title> - OPPORTUNITIES AND CHALLENGES FOR WOMEN ENTREPRENEURS ON THE 20TH ANNIVERSARY OF THE WOMEN'S BUSINESS OWNERSHIP ACT</title>
<body><pre>[Senate Hearing 110-662]
[From the U.S. Government Printing Office]


                                                       S. Hrg. 110-662
 
   OPPORTUNITIES AND CHALLENGES FOR WOMEN ENTREPRENEURS ON THE 20TH 
           ANNIVERSARY OF THE WOMEN'S BUSINESS OWNERSHIP ACT 

=======================================================================

                               ROUNDTABLE

                               BEFORE THE

                      COMMITTEE ON SMALL BUSINESS
                          AND ENTREPRENEURSHIP



                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                           September 9, 2008

                               __________

      Printed for the use of the Committee on Small Business and 
                            Entrepreneurship


 Available via the World Wide Web: http://www.access.gpo/gov/congress/
                                 senate

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

44-861 PDF                       WASHINGTON : 2008 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 


























            COMMITTEE ON SMALL BUSINESS AND ENTREPRENEURSHIP

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                 JOHN F. KERRY, Massachusetts, Chairman
CARL LEVIN, Michigan                 OLYMPIA J. SNOWE, Maine
TOM HARKIN, Iowa                     CHRISTOPHER S. BOND, Missouri
JOSEPH I. LIEBERMAN, Connecticut     NORMAN COLEMAN, Minnesota
MARY LANDRIEU, Louisiana             DAVID VITTER, Louisiana
MARIA CANTWELL, Washington           ELIZABETH DOLE, North Carolina
EVAN BAYH, Indiana                   JOHN THUNE, South Dakota
MARK PRYOR, Arkansas                 BOB CORKER, Tennessee
BENJAMIN L. CARDIN, Maryland         MICHAEL B. ENZI, Wyoming
JON TESTER, Montana                  JOHNNY ISAKSON, Georgia

                 Naomi Baum, Democratic Staff Director
                Wallace Hsueh, Republican Staff Director



























                            C O N T E N T S

                              ----------                              
                                                                   Page

                           Opening Statements

Kerry, The Honorable John F., Chairman, Committee on Small 
  Business and Entrepreneurship, and a United States Senator from 
  Massachusetts..................................................     1

                             Participants *

Barton, Margaret Mankin, Executive Director, National Women's 
  Business Council, Washington, DC
Coleman, Faye E., President and Chief Executive Officer, Westover 
  Consultants, Inc., Bethesda, MD
Costello, Patricia, Director, The Arthur M. Blank Center for 
  Entrepreneurship, Babson College, Babson Park, MA
Dolan, Lisa, President, Securit, Flushing, NY
Dorfman, Margot, Chief Executive Officer, U.S. Women's Chamber of 
  Commerce, Washington, DC
Elder, Tara, Director, Women's Business and Training Center, 
  Beckley, WV
Hadary, Sharon G., Executive Director, Center for Women's 
  Business Research, McLean, VA
Hollister, Kip, Founder and Chief Executive Officer, Hollister, 
  Inc., Boston, MA
Jacobus, Heidi, Chief Executive Officer, Cybernet Systems 
  Corporation, Ann Arbor, MI
Littlejohn, Virginia, Chief Executive Officer, Quantum Leaps, 
  Inc., Washington, DC
Merlino, Nell, Founder and Chief Executive Officer, Count Me In 
  for Women's Independence, New York, NY
Sullivan, Ann, Government Relations, Women Impacting Public 
  Policy, Washington, DC

* Comments, if any, between pages 6 and 16.

                   Participants' Prepared Statements

Littlejohn, Virginia
    Prepared statement...........................................     7
Hadary, Dr. Sharon G.
    Prepared statement...........................................    13

                       Statements for the Record

Ballard, Saberina A., Favor Network Services, LLC, 
  Fredericksburg, VA.............................................    49
Gozdz, Wanda E., W. Gozdz Enterprises, Inc., Fort Pierce, FL.....    50
Mahoney, Maria, The Mahoney Group, Inc., Lakeland, FL............    51
Shondel, Valerie, SelectoFlash/WIPP, West Orange, NJ.............    53
Shrier, Cat, Ph.D., P.G., Watercat Consulting, LLC, Washington, 
  DC.............................................................    55
Turczyn, Charlene, CMW & Associates, Springfield, IL.............    58
Waldron, Gayle, The Management Edge, Largo, FL...................    60
Weeks, Julie R., Womenable, Empire, MI...........................   131

                         Supplemental Material

Global Entrepreneurship Monitor (GEM) 2007 Report on Women and 
  Entrepreneurship, Executive Summary                               135
U.S. Women's Chamber of Commerce, Report to Congress, September 
  2008, ``Special Report: 2006 Federal Contracting Data Grossly 
  Overstates Spending with Women-Owned Firms''                      139


   OPPORTUNITIES AND CHALLENGES FOR WOMEN ENTREPRENEURS ON THE 20TH 
           ANNIVERSARY OF THE WOMEN'S BUSINESS OWNERSHIP ACT

                              ----------                              


                       TUESDAY, SEPTEMBER 9, 2008

                      United States Senate,
                    Committee on Small Business and
                                          Entrepreneurship,
                                                   Washington, D.C.
    The committee met, pursuant to notice, at 10:10 a.m., in 
room 428-A, Russell Senate Office Building, the Honorable John 
F. Kerry (chairman of the committee) presiding.
    Present: Senator Kerry.
    Majority staff present: Karen Radermacher (professional 
staff member) and Greg Willis (counsel).
    Minority staff present: Linda Le (professional staff 
member) and Erik Necciai (counsel).

  OPENING STATEMENT OF THE HONORABLE JOHN F. KERRY, CHAIRMAN, 
SENATE COMMITTEE ON SMALL BUSINESS AND ENTREPRENEURSHIP, AND A 
            UNITED STATES SENATOR FROM MASSACHUSETTS

    Chairman Kerry. Well, we will officially open up this 
roundtable. I appreciate everybody's patience. I am sorry I got 
hung up on the telephone, and I am sorry to keep everybody 
waiting. We are delighted to welcome so many people here, and I 
gather we have even an overflow room where additional folks are 
listening.
    I will just bring you all up to speed. These roundtables 
are a different way of doing business here, but we think a far 
more effective way of doing business, frankly, because it 
deformalizes the hearing process a little bit and increases the 
ability to have a substantive dialog, it doesn't just become a 
kind of formal few questions, one panel, next panel, but we get 
to go on and have a longer discussion. While I can't stay for 
the whole discussion, the staff to my right and left, Karen 
Radermacher and Ms. Le, will manage the discussion as we go 
forward.
    There is a formal record kept of this so that our 
colleagues are able to follow it and catch up to it, and we 
have found through the years that this has really been one of 
the most effective ways of laying the groundwork for good 
legislation and really working through some of the issues with 
the community at large.
    A number of you in this particular roundtable have taken 
part in previous ones and we are grateful to you for that and 
we are very, very happy. I know that many of you sitting in the 
audience would have preferred to have been here at the table, 
and I understand that. I apologize that not everybody can be 
accommodated all at the same time. But we will leave the record 
open for a 2-week period of time, and if you hear anything that 
is at odds with your experience or something that you would 
like to add to the record, we really welcome it. It will be 
particularly helpful to us in building the foundation for us to 
be able to legislate here effectively as we proceed forward.
    This is the second roundtable that we have had this year 
focused specifically on women's business issues. In March, the 
committee held a roundtable in Framingham, Massachusetts, 
entitled, ``Women in Business: Leveling the Playing Field.'' 
That is exactly, really, what the discussion will continue on 
here today.
    This Committee has made, I think, significant efforts, and 
I am pleased to have worked with Senator Snowe both when she 
was Chairman and now in my role as Chairman. We have really 
sort of interchanged the process here very easily and the 
committee as a whole has worked very effectively on a 
bipartisan basis.
    But your comments today are going to be critical to helping 
us as we think how to break down these last barriers that seem 
to remain. They have been persistent and they are persistent, 
and I think it is good to air that and to underscore the nature 
of its persistence. I am glad to welcome each of the 
participants here. I thank you for being here.
    Particularly, I am grateful to say hello to Kip Hollister 
from--pardon me a little chauvinism--from Boston, 
Massachusetts, celebrating the 20th anniversary, I gather, of 
your business, some 80 employees, and, I gather, $26 million of 
revenues. So we really congratulate you on that. I know you 
have had to overcome a lot of the hurdles that I have talked 
about and just the upturns, downturns of the economy as it is. 
So we congratulate you on that.
    I also want to welcome Trish Costello, who took part in 
our--she is from Babson College and she took part in our 
earlier roundtable in Boston.
    So all of you know that 20 years ago, Congress passed H.R. 
5050, which was the Women's Business Ownership Act, and it was 
the first comprehensive small business legislation aimed to 
help women business entrepreneurs succeed. The bill was the 
culmination of a movement that really began in the 1960s to 
address economic inequalities between men and women and 
continued with changes such as the passage of the Equal Credit 
Opportunity Act of 1974. The women leaders throughout that 
period of time pushed to move the Women's Business Ownership 
Act forward, and it has been a very important tool in helping 
provide the tremendous growth of women-owned businesses that we 
have seen over the last two decades.
    The Women's Business Ownership Act created Women's Business 
Centers and they provide consulting and training to women who 
seek to start or grow a business. I know firsthand of the 
positive impact of that program through the work of the Center 
for Women in Business Enterprise in Boston and in Worcester. 
Since 1995, the three branches of this center have helped over 
14,000 entrepreneurs. So it just goes to show there is a demand 
out there and when we meet the demand, we have a very positive 
impact.
    H.R. 5050 also created the National Women's Business 
Council, which presents policy advice on women small business 
issues to Congress and to the President. It required the Census 
Bureau to include women business owners in its census survey, 
and it called for all agencies to report on any new contracts 
with women-owned firms, one of the earliest efforts to try to 
get our arms around the problem of whether or not women were 
really getting their fair share of Federal contracting.
    According to the data that the Center for Women's Business 
Research will officially release tomorrow, and they have shared 
it with us, between 1977 and 2002, the number of women-owned 
businesses grew by a whopping 824 percent. The new 2008 numbers 
also show that 7.2 million firms were owned by women. These 
firms employed 7.3 million workers and created $1.1 trillion in 
revenue.
    But despite these, the success that is clearly articulated 
in those numbers, women-owned businesses still lag behind their 
male counterparts in important areas. Women-owned firms have 
lower revenues and fewer employees than their male-owned 
counterparts, and we are talking about apples and apples here, 
not apples and oranges. Eighty percent of women-owned firms 
have revenues under $50,000. And although 6 percent of men-
owned firms have revenue of $1 million or more, only 3 percent 
of all women-owned firms do, so it is 2-to-1. Women-owned firms 
often have fewer employees, as only 16 percent of all firms 
with employees are owned by women. And in Federal procurement, 
women-owned firms receive less than 3.5 percent of all Federal 
contracts, and that is deeply troubling.
    Understanding what causes these differences and taking 
steps to address them is critical in terms of properly 
addressing questions of the strength of the American economy 
itself. It is particularly important during these tough 
economic times. As reported in the Global Entrepreneurship 
Monitor 2007 Report on Women and Entrepreneurship, and I quote 
it, ``ignoring the proven potential of women entrepreneurial 
activity means that countries put themselves at a disadvantage 
and thwart their opportunity to increase economic growth.''
    In reviewing the last 20 years, it is disturbing to see 
that the issues that were hindering women entrepreneurs from 
achieving their full potential 20 years ago are still barriers 
today. Access to capital, access to markets, particularly 
Federal procurement, as we have just pointed out, and other 
issues continue to be the central issues of concern in this 
relationship and they are the central issues of concern to this 
committee as we meet here today.
    This roundtable is going to focus on each of these issues, 
accessing markets, especially Federal contracting and 
procurement, accessing capital, and accessing networks and 
decisionmakers. Twenty years later, the committee continues to 
be engaged in addressing those issues.
    Last year, Senator Snowe and I worked together to pass 
legislation giving permanent funding to established Women's 
Business Centers. That language was implemented this year. In 
addition, we unanimously passed out of the Committee the 
Entrepreneurial Development Act and the Small Business Venture 
Capital Act. The Entrepreneurial Development Act reauthorizes 
the Women's Business Center program and the National Women's 
Business Council. In addition, the Small Business Venture 
Capital Act creates incentives for financing of women-owned 
firms under the SBA's program for Small Business Investment 
Companies, the SBIC, as many of you, I hope, are familiar with.
    Both of these bills are now part of S. 2920, which is the 
Small Business Reauthorization and Opportunity Act, and we are 
working to pass it in the Senate. I hope that each of you from 
whichever State you come from will be in touch with your 
Senators in order to urge them to pass that forthwith.
    Senator Snowe, myself, and many others are also working to 
prevent the Women's Procurement Rule--some of you may be 
familiar with it--which has been offered by--some of you is an 
understatement--well, you will be pleased to know we are 
working hard to prevent that procurement rule from being 
finalized. This has been one of my top priorities ever since 
the Bush administration proposed the rule on December 27 of 
last year. This rule would allow set-asides for women-owned 
firms in only 4 of a possible 140 industries. If you want to 
have an interesting background to that question, just pull up 
the testimony we had with the Administrator of the SBA and the 
Administration when we questioned them as to the rationale, 
both Senator Snowe and myself, and their answers on rationale 
is really very, very disappointing. That is when Steve Preston 
was still there and we had that dialog last year.
    Now, maybe there are those in this Administration who 
believe that women business owners don't deserve a fair shot at 
doing business with the Federal government, but I think the 
statistics are clear. More needs to be done to provide access 
to women in the Federal marketplace, and we have a Federal goal 
that women should receive at least 5 percent of all Federal 
contracts. Last year, they received only 3.4 percent. In 
addition, that is without some of the Federal contracting areas 
being available, like TSA, which we have now mandated are 
available. So the pie, in fact, has grown significantly larger 
than that and the percentage would be significantly smaller 
when measured against the larger pie.
    So I will just close quickly by saying that we have got to 
do more and this proposed rule is really an affront to hard-
working women business owners who simply need an opportunity to 
be able to prove what they are able to do and we ought to live 
up to the law. It is pretty simple stuff.
    I will continue to do everything I can to see that that 
rule doesn't see the light of day in its current form and to 
ensure that women have an opportunity to contract with the 
Federal government by putting in place a meaningful procurement 
program.
    So I look forward to our discussion today. If you want to 
make a comment, the general format is you take this thing and 
just stand it up on its end like that and one of the staff 
leaders will recognize you as we go forward. Or if I am here, I 
will call on you. And we ask you just to keep your comments and 
answers tight so that we can stay engaged and keep moving 
around, and who knows, maybe we will even have the opportunity 
toward the end to have a few interventions from folks in the 
audience if we do this in a crisp fashion.
    So either Linda or Karen, or Karen and Linda, in whichever 
forum, will help to manage the discussion, and without further 
ado, why don't we kick it off. Do you have a preordained--do 
you want someone to go first, or do we just want to lead off on 
the first topic?
    Well, why don't we start off, I mean, we have those three 
sectors, access to capital, access to--I think we ought to 
divide it up, and then if we want to look at it generically. 
Virginia, you were one of the people who helped make this thing 
happen 20 years ago. Maybe you would be the ideal person to 
lead off the discussion and give us a sense of where we are 
compared to where we have traveled from.
    Ms. Littlejohn. I am not going to give you the full 
history. I am just going to give you a couple of anecdotes in 
the interest of time, the first one relating to data and 
statistics. The SBA's publication, State of Small Business, 
reported on the state of women's entrepreneurship in the 1970s 
and 1980s, but because the Federal Census measured only the 
sole proprietorships, the figures were extremely distorted.
    So at a very meeting in this room in 1982 or 1983, one of 
the--the Staff Director said something about women-owned 
businesses only had gross annual receipts of $10,000 a year and 
most of them were basement or kitchen table-based businesses 
with basically macrame firms or candle making. We had 40 women 
business owners sitting in the room and I said, you know, I am 
sure this isn't true. You are never supposed to do something 
unless you know your numbers. But, I said, do you mind if we 
ask in the room how many of you own C corporations, et cetera. 
I asked everybody to raise their hand if they had more than $1 
million in sales per year. You could hear the thunderous 
slamming of jaws onto the table with slack-jawed stupefaction 
as they realized all of the data were completely wrong. So that 
was the background on getting that piece in 5050.
    In terms of access to business credit, in the 1970s, there 
was a congressional hearing where a divorced woman business 
owner who didn't have a husband to cosign her loan provided 
information about the request to have her son cosign her loan. 
Now, here is the interesting part. The son was 17 years old.
    And then in the Federal procurement area, in hearings that 
were held in the late 1970s, there was discussion about 
accessing Federal markets, which has been a huge issue for 
years and years, and the woman business owner who was 
testifying was telling about a conversation she had with the 
Federal procurement officer and she asked him about how she 
could break into the Federal market, what did she need to do, 
and the serious response was, sleep with the contracting 
officer. This was what we referred to within the community as 
the Hollywood casting couch, the Federal version of things.
    So all of those issues and others were addressed in H.R. 
5050 and we have made huge, huge progress since then, but we 
still have a long way to go.
    Chairman Kerry. If you had to pick, Virginia--and thank you 
for your efforts through the years on this--if you had to pick 
one of those sectors or one thing that we could do that would 
make the most difference, what would that be? I mean, if it 
were access to capital or procurement or networking, where do 
you think the biggest single leap could be made if X, Y, or Z 
barrier were removed?
    Ms. Littlejohn. Well, I would say the biggest barrier has 
really been in the Federal market. That has been--in 1978, when 
I still lived in San Francisco, we were working on trying to 
get women-owned businesses into the Federal marketplace. It has 
been so incremental. We have barely inched ahead. But huge, 
huge strides are in the thinking process with the economic 
blueprint and with some of the initiatives that are going on 
right now. I think that is the biggest structural impediment.
    There are many other issues that need to be dealt with that 
are in the economic blueprint, but we basically decided in 1988 
that we didn't think we would be able to get anything passed if 
we went heavily after Federal procurement at that point. We 
felt that it would jeopardize the entire bill. So of the five 
burning issues we had then, we decided we would try to deal 
with that later in another way and not jeopardize the whole 
what became the Women's Business Ownership Act.
    [The prepared statement of Ms. Littlejohn follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Chairman Kerry. Does anybody else want to pick up on that 
question I just asked? Yes, Dr. Coleman? Tell everybody who you 
are.
    Ms. Coleman. Yes. My name is Faye Coleman. I own a 
contracting, Federal contracting and management consulting 
company named HIT, health consulting company in Bethesda, 
Maryland. I have been in business since 1984, so I have been 
around for 20, almost--well, next March it will be 25 years. 
And I really just want to quickly echo what Virginia said about 
the opportunity for significant improvement and advancement in 
the figures and the impact being in the Federal procurement 
area.
    As someone--about 80 percent of our business is in the 
Federal sector, and even before I started my business, I had 
worked as a consultant in the Federal arena, and so I thought I 
knew--because this was something I was familiar with, that is 
the direct----
    Chairman Kerry. What does it do? What does your business 
do?
    Ms. Coleman. My business provides technical assistance and 
training and program assistance to agencies in the health 
arena, health promotion, disease prevention, risk reduction, 
and also the infusion of technology to provide solutions to--
our clients include the National Institutes of Health, the 
Center for Substance Abuse Prevention, and many of the other 
agencies in the health----
    Chairman Kerry. How many employees?
    Ms. Coleman. We have got 43 employees and we have revenues 
of $16 million. One of the things that--I just went to a pre-
proposal conference yesterday for a large procurement out of 
the Department of Defense and one of the things that just 
really reinforced this whole issue around access to Federal 
markets to me was that when people talk about the goals that 
are set by contracting officers and procurement officials for 
subcontracting, particularly for large bundled procurements, 
multi-million-dollar procurements, women's business, the goals 
for women-owned business involvement is probably one of the 
least, the last ones. Small business, of course, is number one.
    And the pie is so big on this that it is not a matter of 
necessarily putting it in increments because there is enough 
for everybody to go around, but it just is interesting to me 
that it is almost an afterthought in many cases that 
procurement officials and contracting officers, when they are 
talking about percentages and goals for involvement in a 
subcontracting basis, that women-owned businesses--service 
disabled veteran-owned businesses, HUBZone businesses, 8(a), 
women-owned, they are all involved, but the percentage goals 
are smaller for women-owned businesses. So I do think----
    Chairman Kerry. What stuff do you do outside the 
government?
    Ms. Coleman. I would say about 15 to 20 percent of our 
business is outside of the Federal government. That includes--
--
    Chairman Kerry. Are you growing outside----
    Ms. Coleman. Yes. Yes, we are. We definitely are. But I 
would say that the majority of our larger multi-year contracts 
are on the Federal side.
    Chairman Kerry. And in your efforts to secure the Federal 
contracting, have there been perception issues you have had to 
get over? Have there been just sort of fundamental----
    Ms. Coleman. Well, it is--yes. There have been some 
perception issues, particularly early on when I first started. 
There was a perception that women were not quite as capable as 
a male-owned company, particularly in some markets, in energy 
and NASA. We do work with Transportation and NASA and some of 
the more scientific agencies, Commerce. So I frequently got--
now, it is hard to pinpoint exactly, that that is exactly the 
case, but you would go to procurement meetings and fora and 
women were definitely underrepresented, and this sort of gets 
into one of the other issues about access to networks and 
decisionmakers.
    Again, in the Federal procurement area, there is a whole 
universe of people who are very instrumental in the 
decisionmaking process and just the knowledge sharing process, 
and if women are not as equally represented at those tables, 
then you don't have the information that you need to be as 
successful and as savvy in putting together winning proposals 
and crafting teaming agreements and joint ventures and all the 
things that lead to success.
    Chairman Kerry. Did you find that there was a proactivity 
on behalf of the agencies you were dealing with, or did you 
have to kind of break down the doors and say, hey, we are here. 
We are----
    Ms. Coleman. Not as much for women. I will say it is 
getting a little bit better. But the proactivity was not as--
definitely not as much for women-owned businesses as you saw in 
some of the other areas.
    Chairman Kerry. Sharon?
    Ms. Hadary. I am Sharon Hadary, Executive Director of the 
Center for Women's Business Research. Mr. Chairman, we thank 
you for making our--or previewing our announcement of the Ninth 
Biennial Update on the numbers of women-owned businesses that 
we will be releasing tomorrow.
    I just want to throw a little data in here. Obviously, we 
are the Center for Women's Business Research and, in fact, we 
evolved because of the Women's Business Ownership Act because 
part of that said research is vital to understanding the issues 
and having actionable knowledge, and we are the premier and 
probably the only nonprofit research institute in the world 
devoted exclusively to studying women business owners.
    There are a couple of statistics I would like to add to 
this. When we look at the businesses that are majority owned by 
women, they represent about 30 percent of all businesses. We 
also have to look at the changing profile of women-owned 
businesses. Twenty-six percent of all women-owned businesses 
today are women of color, and oh, by the way, that is up from 
20 percent just a few years ago.
    So a lot of the issues we are talking about are 
exacerbated, we found in a 3-year study that we are doing on 
accelerating the growth of businesses owned by women of color, 
many of these issues are exacerbated--made worse, these big 
words--researchers have trouble with big words.
    [Laughter.]
    Ms. Hadary. But seriously, many of these issues are, in 
fact, made more difficult when the individual is both a woman 
and a minority. I just very quickly want to give you a couple 
of examples of this disparity, of the disparities we see, 
because when we look, break this down by industry, you can't 
just go with the overall--when you break this down by industry, 
for example, when we look at industries like education, where 
the majority of the businesses in that industry code are women-
owned, 56 percent are women-owned and yet they get only 7 
percent of the dollars. When we look at health care, 58 percent 
of the businesses in that industry code are owned by women and 
they get only 7 percent.
    And then when you drill down to some of the less 
traditional areas for women-owned businesses, utilities, 14 
percent are women-owned but they get only 10 percent--I am 
sorry, only 1 percent of the contract dollars. Transportation, 
12 percent of the firms and they get only 1 percent. This is 
not----
    Chairman Kerry. Let me stop you there for 1 second.
    Ms. Hadary. Yes.
    Chairman Kerry. Each and every one of those categories that 
you have just listed, I might add, are left out of----
    Ms. Hadary. Yes, sir.
    Chairman Kerry. 140----
    Ms. Hadary. Yes, sir, and I can go through every industry 
category, but I figured in the interests of time, you would 
prefer that I just pulled out a few of the most interesting 
ones. But those--I am not--in every industry, we see the same 
kind of gap and disparity, and I want to just add one more 
thing.
    This is not necessarily about equity. This is about 
economic development, because in research, what we have seen is 
that the businesses that have Federal contracts are the 
businesses that show continual, regular growth over a period of 
time. So it is important for economic development for our 
country as well as for the opportunities for women business 
owners.
    [The prepared statement of Dr. Hadary follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Kerry. Well, that is a very good point, and what I 
would like to do, Linda, is make sure that Senator Snowe and I 
take your data and send a letter to the Acting Administrator of 
the SBA and underscore to them these findings relative to their 
proposed rulemaking. I think that is really important for us to 
follow up on.
    Margot Dorfman?
    Ms. Dorfman. Thank you. I greatly appreciate the 
opportunity to be here. My name is Margot Dorfman. I am CEO 
with the U.S. Women's Chamber of Commerce, and, of course, our 
number one issue is making sure that the Women's Procurement 
Program is implemented as it was intended, so thank you for 
your efforts on that.
    I would like to add to some of the statistics that we have. 
While total Federal spending grew from $200 billion in 1999 to 
over $340 billion in 2006, and that is an increase of $140 
billion, spending with women-owned firms increased by only $5 
billion. So we see that where the spending is occurring is a 
challenge.
    Additionally, we believe that the numbers that are shown 
right now with the 3.5 percent or whatever it is spent with 
women-owned firms is probably overstated. We are releasing a 
report, and one of the things that we have done is we have 
identified the top 50 firms that are in the Federal Procurement 
Data System and we find that over 50 percent of those that are 
shown as women-owned actually have male CEOs. We are looking at 
about $2 billion of contracting with women-owned firms that is 
stated that may not be actually going to women-owned firms.
    Another issue we see is that nine Federal agencies spent 
more than 50 percent of their total spending with women-owned 
firms with just ten firms each. So while there is money that is 
being spent out there, it is a very small pool of women-owned 
firms that are actually accessing the dollars.
    Chairman Kerry. That is pretty stark. Two of you further 
document what I think everybody in the audience understands is 
happening, and the documentation is critical because you have 
got to make your case and be persuasive. But let us assume for 
the purposes of this discussion now that it is as bad as it can 
be, and we all understand how bad it is. The question is, what 
is the fastest remedy here? How do we turn this around?
    Now, in my judgment, and obviously I put a lot of energy 
into this 4 years ago, believing it, if you have got a 
President who tells his cabinet officers this is going to 
happen and you check every other week on whether it is 
happening, it happens. It is called executive leadership and we 
need to make sure that whatever the next administration is, we 
are going to have strong executive leadership.
    But what can we do in terms of the law or the access to 
capital rules or anything that we can control here, in your 
judgment, to most rapidly remedy this, beyond the executive 
leadership that is necessary to demand that those goals be met? 
Judgments on that? Yes, Ann Sullivan?
    Ms. Sullivan. Virginia referred to the economic blueprint 
that was released this week, and that is 30 organizations have 
come together and a lot of individual business owners who are 
in this audience to talk about what they want from the Congress 
and the next administration in terms of action on these issues.
    So with procurement, we have three main points. One is, 
which we have talked about, put into place a meaningful Women's 
Procurement Program. As you know, it has been a long time in 
coming and we are very dissatisfied with what is proposed. But 
that is the vehicle. If you can set aside contracts, if you can 
limit the competition, that will definitely help the agencies 
meet their goal.
    Two, contracts are too large. We have to unbundle 
contracts. Without that, and it is the trend today that 
contracts are bigger, these small businesses just can't 
compete.
    And then, three, we have to strengthen small business 
subcontracting by enforcing prime contractors' subcontracting 
plans. If we helped you win the bid, you need to use us when 
the work comes in, and that would, in our opinion, also help 
the numbers that have been cited. It would really help women 
businesses get contracts.
    Chairman Kerry. Good suggestions. Trish, you had your 
placard up, or you put it back down----
    Ms. Costello. Well, I am looking at it, as well, Senator 
Kerry, from the standpoint of with these stronger businesses, 
with the contracts that can go in to enable these women's 
businesses to be stronger, this has a tremendous impact on our 
ability to have a robust economy because we know through the 
Global Entrepreneurship Monitor that you mentioned earlier that 
the number of women that are participating as entrepreneurs, 
the stronger they are, the faster they grow, the more robust 
our economy is.
    And, in fact, looking across the world at actually 
countries that represent 90 percent of the GDP, that is 
consistent, that the more women that are involved in the 
economy, from the lower-wealth countries to the higher-wealth 
countries, the more women that are involved and the stronger 
those companies grow, the more robust the economy will be.
    So we are not looking just at the opportunity that these 
individual women have and these individual companies have, but 
it also has a major impact on our ability to be competitive and 
to grow our economy. And as we are looking at how to revive and 
push our economy forward, we need to be looking at how we 
provide these kinds of services and opportunities both in 
procurement and in other areas for women because it is a major 
key piece.
    In addition, what we have been doing, and I know you know, 
Senator Kerry, because this is happening in Massachusetts, but 
you can take--we are now taking the Global Entrepreneurship 
Monitor data and not only are we all over the world, but we are 
now moving down to the State, with Massachusetts being the 
first one where we are actually looking now county by county to 
see the growth of women in that State as our first pilot one to 
see where do we have growth around the State, where are the 
women growing fastest, in what industries are they, and how are 
they benefiting, so we are being able to determine best 
practice in a wide area across both sales and procurement and 
different types of data points.
    Chairman Kerry. Good. Great. That is helpful. Lisa?
    Ms. Dolan. Thank you. Thank you for the opportunity to 
speak today. My name is Lisa Dolan. I own Securit. We are a 
private investigations and security firm in New York. We 
provide 60 percent of our contracts to the Federal government.
    To Dr. Hadary and Ms. Dorfman's point on their percentages, 
the Women's Procurement Program, being in a male-dominated 
field--my NAICS code is 561612--it wasn't even a consideration 
for the SBA and we are certainly in a male-dominated field. I 
was very disappointed. So obviously the Women's Procurement 
Program didn't mean anything to me because they didn't include 
me. They excluded me. So I do believe that you have to look at 
those numbers because 4 categories out of 140 sectors is 
certainly not a fair assessment of women-owned businesses where 
we are underrepresented in many other industries. We do a lot 
of business with the government, but we could do a lot more if 
that carve-out allowed us to be included.
    Chairman Kerry. Can you define further the impediment that 
you run into in terms of the doing more now? What is the 
restraint?
    Ms. Dolan. Well, there are a number of restraints. One is 
the contracts are very large, so in order to get those 
contracts, you have to tap into capital. We have a line of 
credit. We tried to increase it, but the bank actually said, 
well, 60 percent of your contracts are with the government and 
that doesn't make us comfortable.
    [Laughter.]
    Ms. Dolan. And I thought that was a very strange statement. 
So here we are, having this opportunity to be awarded these 
contracts, and yet I had to tap into my personal finances to 
support the payroll because the bank wouldn't increase my line 
of credit. So there are a number of impediments. Also, being in 
a male-dominated field in security, I am usually the only woman 
at the table and not taken seriously. In fact, I think I told 
Karen this story, I went to a meeting. I sit on a governing 
board on a grassroots effort for some legislation in the 
security field and there were 14 men at the table and I was the 
only woman and I came in with my legal pad, because I take 
copious notes wherever I am, and the gentleman sitting next to 
me said, ``Oh, are you John's secretary?'' We are in the year 
2008.
    Chairman Kerry. Well, he wasn't.
    Ms. Dolan. He wasn't. You are right.
    [Laughter.]
    Ms. Dolan. That is right. So, yes, there are some 
impediments.
    Chairman Kerry. We are going to go over--yes, Kip?
    Ms. Hollister. It is a pleasure to be here celebrating our 
20th, as well. You all will be shocked that of the $26 million 
that Hollister is doing this year, guess how much is dedicated 
to government? Probably 15 percent. And I will tell you why. I 
have--one, I think we have got to stop the loopholes for the 
phoniness of it is not really females that are running these 
companies. I have been courted by many who want me to come in 
as the token woman, and guess what? It is a very hard thing to 
resist because my revenues will shoot up. But I have integrity 
as a female owner and I say no. But I know it happens in my 
community.
    Second, the relationship--I am in a relationship business. 
We are a service business. We are a staffing company. No, I 
don't own Hollister Clothing. I wish I did, and so do my four 
children.
    [Laughter.]
    Ms. Hollister. But in the relationship business, I think we 
need to bring some relationship to the procurement process, and 
I don't know how to do that. First, the procurement process 
needs to be easier point of entry for someone like me to manage 
because it is easier right now for me to do business in the 
private sector. And so I need ease of entry. Maybe I need 
mentorship. I agree, I don't know what I don't know.
    But second, once you get these contracts, you are a number 
and that is not how I run my firm. All my clients know who I 
am. I am the female CEO. I go see them. And it is really hard 
to work into the system. So if that is a value, which I think 
it should be, how do we better create a system that can partner 
so that someone like me can take advantage of the government 
and use it to grow my company, because I am not stopping. I 
really have the vision of growing my company to $100 million. 
The only reason it has taken me this long is because I also 
value my work-family balance with my four children. But I am 
competing with some male competitors and it is just a very 
frustrating experience.
    Chairman Kerry. It sounds like it.
    Ms. Hollister. Yes.
    Chairman Kerry. Well, I appreciate the integrity that you 
bring to the effort and hopefully we can make it easier to 
access more of that----
    Ms. Hollister. I would love it.
    Chairman Kerry. Do you have a sense, I mean, beyond what I 
said about the executive piece of it, is it bundling that is a 
problem?
    Ms. Hollister. Yes, that is part of it, because what 
happens in bundling is that they need us to help in the bundled 
approach. So we get invited to the table----
    Chairman Kerry. For the beginning, but then they cast you 
aside afterwards.
    Ms. Hollister. Absolutely, but then I look at how much 
revenue has come or what was the price I had to pay, also 
inclusive in my gross margin dollars, and I run a sales 
organization, so my staff, I don't want to burn out. So yes, it 
is partly the bundling issue, and I think the size of the 
contracts, which has been communicated. You know, we do need 
the capital to then fuel it, so there are a lot, I mean, there 
are a lot behind Door Number 3, but----
    Chairman Kerry. Have you had any interaction with the 
Business Centers?
    Ms. Hollister. No.
    Chairman Kerry. You haven't?
    Ms. Hollister. No. Should I?
    Chairman Kerry. Have you used any kind of technical 
assistance or input from the SBA or----
    Ms. Hollister. You know what, that is something that I 
really want to do. Yes.
    Chairman Kerry. Do you have any SBIR or SBIC----
    Ms. Hollister. No.
    Chairman Kerry. None of that?
    Ms. Hollister. No.
    Chairman Kerry. I guess you wouldn't on the service side. 
That makes sense. OK.
    Tara Elder from West Virginia here, am I right?
    Ms. Elder. I am Tara Elder. I am the Women's Business and 
Training Center Director from Beckley, West Virginia. You asked 
how to fix the problem and I think everything that has been 
suggested is right. You have to start from the top down, but 
you also have to start from the bottom up, and a lot of that 
is, like Dr. Coleman said, more women have to be at the table. 
More women have to be trained on how to approach the government 
for contracting, how to do SBIR, how to do STTR. Women's 
Business Centers are out there every day. That is what we do. 
We assist women every day in their business, but we struggle. 
We struggle in how to train women in government contracting. We 
struggle in how to present SBIR and STTR training because it is 
so expensive to bring and that is something that needs to be 
addressed, is how to bring that training day in, day out, to 
women so they can compete in government contracting and make a 
difference to their local economy.
    Chairman Kerry. Do the women that you train come to you or 
do you go to them?
    Ms. Elder. Both.
    Chairman Kerry. Do you cast a net and try to pull people 
in?
    Ms. Elder. Both.
    Chairman Kerry. You do?
    Ms. Elder. Yes. We are a very rural State in West Virginia. 
We cover--our center covers 11 counties, and from one end to 
the other, it is about 5 hours. So some training we take on one 
end, some to the other, and some events we bring them to the 
center. And right now, we are the only Women's Business Centers 
in the State of West Virginia, so we field calls from the whole 
State.
    Chairman Kerry. How do you target who you are approaching 
or sort of the net you are casting?
    Ms. Elder. A lot of the times, we use SIC codes. We look at 
the industry they are in. But then we do a broad-based press 
release, as well, so that we let people who we may have missed 
with our targeting marketing who pick up the press release and 
say, oh, that is government contracting. I may be interested in 
that. And it may have been our shortsightedness who thought 
they wouldn't fit into that SIC code or it may not be the right 
industry for them. They may know more than we do sometimes.
    Chairman Kerry. Do you coordinate with the Secretary of 
State's office in terms of their recordation of all existing 
businesses?
    Ms. Elder. Sometimes. It depends. They are hard to get a 
list from, so sometimes we can get a list very rapidly and 
sometimes we can't.
    Chairman Kerry. It seems to me maybe we ought to think 
about making that sort of an automatic----
    Ms. Elder. You would think.
    Chairman Kerry [continuing]. That when a business is 
incorporated or filed appropriately, there is some kind of 
transfer to the SBA folks and they know, wow, there is a new 
young business here and then you can actually reach them rather 
than having them--it seems to me that we don't talk to each 
other within these processes very well.
    Ms. Elder. Unfortunately, State, Federal government doesn't 
talk very well----
    Chairman Kerry. Yes.
    Ms. Elder [continuing]. And agencies inside the State 
Government don't talk very well and neither do Federal agencies 
a lot of times.
    Chairman Kerry. We ought to think about ways to do that. 
What about Chambers of Commerce? Do you have an automatic----
    Ms. Elder. We work very well with our Chambers of Commerce. 
Our local Chambers work very well with us. We partner on 
everything, so we use their mailing lists and they use ours.
    Chairman Kerry. Margot Dorfman, do you want to come back 
here? I have got to run in about 4 minutes here, folks. I am 
going to turn it over to the staff momentarily.
    Ms. Dorfman. Thank you. One of the things that we find when 
I talk to the small business officers and directors for the 
agencies, what they have said to me, we would love to get more 
women in the door, but without the program in place, we don't 
have any directions on how to actually bring them in because 
there are all sorts of legalities. There is no FAR. There is no 
regulation and we have to have that regulation in place so that 
we know how to live by the law according to procurement. So 
that is why we are so adamant about getting this law on the 
books in a way that reflects what we see as the 87 percent of 
all businesses or all industries that are underrepresented with 
women-owned firms, so that we can open that up.
    And in addition, what we see is a need for the SBA to have 
some transparency and do what they say they are going to do. It 
is very clear that their mission is to support small business, 
but just the fact that they are impeding the process of 
implementing this program is one. They have cut their budgets. 
So when you talk about the State level, a lot of the State-
level SBAs don't have the resources anymore to do any outreach 
because their budgets have been cut and cut and cut and they 
are--the people that have left, they have not been replaced.
    And the same thing about when you get access to capital 
funding. That also has been--levels of funding have been cut 
for loans and the access to those loans. So there are, I think, 
a number of areas that the SBA needs to be held accountable for 
that we need to have them move forward.
    Chairman Kerry. Fair enough. Heidi?
    Ms. Jacobus. Thank you. I am Heidi Jacobus and I am the 
founder and CEO of Cybernet Systems, which is a high-technology 
business founded in Ann Arbor, Michigan. I have 50 employees 
and----
    Chairman Kerry. Fifty?
    Ms. Jacobus. Fifty, yes, and they comprise a lot of Ph.D.s 
and master's degrees and very well trained engineers.
    I am interested to note that more than 50 percent of the 
master's degrees since 1983 in science and technology have been 
awarded to women and yet we still see so very few women taking 
their education and bringing it to practice and whether--what 
the impediments are for them to do that. But they certainly 
don't lack for technical background to be able to do that.
    I have the advantage of an excellent education. I started 
college at a place that was forced to accept women in 1970 
after the Supreme Court ruling, so I think a lot of us know 
what it is like to have been denied access to certain very fine 
colleges until that year. I did my undergraduate there, and 
then I went on to graduate school in computer science, where I 
earned my master's degree in computer science in 1977 and 
continued toward my Ph.D. I never finished the Ph.D. I started 
my company instead.
    But it is lonely out there, and I don't think--I think we 
see a lot more women graduating than we see occurring in 
businesses. There is a trend for the number of women graduates 
going up, and yet the data shows the number of women in these 
technology businesses flat. So it doesn't make sense. The 
numbers don't compute to me.
    Chairman Kerry. That is interesting. Well, it is good to 
see what the product of a good football program can do.
    [Laughter.]
    Ms. Jacobus. No comment.
    Chairman Kerry. It doesn't compute, and it would be really 
interesting to try to figure out--I can think of a lot of 
possibilities about why it doesn't, but I don't want to even 
hypothesize. It would be very interesting to understand where 
those folks are going and what they are doing as a result of 
that, because you are absolutely correct. There is about a 50 
percent or even better----
    Ms. Jacobus. Right.
    Chairman Kerry [continuing]. Rate of graduation. We ought 
to try to see if there is any data on that and see if we can 
figure it out.
    Folks, I, unfortunately, I have got an 11 o'clock. I have 
got to run out of here. But I kept promising you Linda and 
Karen and you finally get them. What I would like you to do 
before you wrap this up--and again, I want you to invite, if 
there are any interventions from the audience at large, I would 
like to invite them, also--see if you can prioritize. I mean, 
see if at the end of this you can say, OK, here is one, two, 
three, four, whatever, that we ought to tackle so that we can 
come out of this with maybe a consensus about what the order of 
priority is as to what we might try to achieve. That would be 
really helpful to us on the committee.
    So hopefully without interrupting the flow, I really thank 
you all very much. It has been very, very interesting, and I 
know it will continue to be, so go ahead.
    Ms. Radermacher. All right. Actually, Faye, did you want 
to--I think your card is next up. Oh, no, I apologize.
    Ms. Merlino. Thank you. Thank you, Faye. Nell Merlino from 
Count Me In for Women's Economic Independence. We are a not-
for-profit provider of resources for women in business and we 
won a program called Make Mine a Million Dollar Business. One 
of the things that we have seen and continue to see is the 
desire for women to grow their businesses to a million dollars 
and beyond and a real lack of resources to the point that was 
made in West Virginia, about the lack of resources, say, that 
the SBA has to actually reach out to women. We are finding 
across the States where we are doing our programs the SBA is 
coming to us and asking us to do outreach to women and to get 
them to come to our events so they can meet them at those 
events.
    So there seems to be a real disconnection or lack of 
awareness on the part of an awful lot of businesswomen about 
those agencies because they are not able at this point to do 
the kind of outreach that I think was--it was a great 
suggestion about perhaps notifying those agencies as women 
start businesses, but more importantly, the women who are--and 
Julie Weeks is in the audience who coined a phrase called ``The 
Missing Middle,'' which is everybody who is beyond a startup 
and is trying to figure out how to grow their business. How do 
we put more resources to the missing middle who will create 
more jobs than certainly any other group?
    We have a goal at Make Mine a Million and in our program of 
getting a million women to a million dollars in revenue and 
that alone would create a minimum of four million jobs. So I 
think the focus on growth, but growth for a large mass of 
women, is important, because then they would be able to take 
advantage of the procurement situations that are being 
described.
    Ms. Radermacher. Great. I think that is a really important 
point that you bring up, Nell, about the missing middle and 
also about how to help small businesses grow and perhaps it is 
a good way to transition into some of our other topics. We have 
spent the first hour talking about procurement, which is such 
an important topic.
    So I guess one of the questions I would have for you, what 
are--you mentioned the missing middle and what you are doing to 
help them. Are there any other either specific needs or things 
that should be done, whether by SBA or anyone else, to help 
these small businesses grow into multi-million businesses, or 
million-dollar businesses?
    Ms. Merlino. Certainly, a lot of the things that were 
discussed already. The issue of the size of government 
contracts is formidable to a lot of businesses. But it is a 
combination--I think I can best answer it with a very short 
story about a woman who went from $400,000 to over $20 million 
in 18 months and the intervention that we supplied was 
relatively small but significant.
    One, she had never taken advantage of the fact that she was 
a woman and minority-owned business and wasn't quite sure how 
to do it. So we were able to direct her to the places. She runs 
a business called Human Potential which trains people coming 
back from Iraq and Afghanistan how to get back into the 
workforce, and people coming out of prison and people who have 
been downsized. So given the economic news, her business is 
kind of valuable and important and she was stuck at $400,000 
for 5 years, mainly because she didn't know how to delegate to 
employees, and she has grown from now ten employees to 80 
employees. So it was a minimum amount of technical assistance 
and education and awareness about the opportunities that 
existed in government contracts and programs.
    So I think this issue of the networks and how aware we want 
to make people about what those opportunities are--too many 
women are coming to our program and going from way under a 
million dollars to over a million in 12 to 18 months and it 
suggests a focus in this area would move millions of women out 
of that $50,000 revenue area into larger and larger businesses 
where I do think there are then resources, or some resources--I 
am sure some folks on the panel would argue with me about 
that--but there seems to be greater opportunity. It is getting 
to the point where you are big enough to start thinking about 
taking advantage of these opportunities that I think needs to 
be addressed more clearly by the SBA and the Business Centers 
around the country.
    Ms. Radermacher. Right. Well, I think that is actually an 
incredible point, even, about the impact that just a little bit 
of help can have, and it does make me think of the impact on 
the whole economy if that were available to everybody.
    Did you have a question, Linda?
    Ms. Le. I first wanted to welcome all of the women here on 
behalf of Senator Snowe. She was in the House of 
Representatives in 1988 when the Women's Business Ownership Act 
was passed and she voted for it then and has worked very hard 
since then to support it, so welcome, everyone. I also wanted 
to thank Karen Radermacher because she has worked so hard to 
put this together.
    My questions are about Make Mine a Million. What is it that 
the women are learning when they come to your program that is 
propelling them forward? What are the two or four or five 
things that are making such a difference that they are going 
from below a million dollars to above a million dollars in such 
a short period of time and how can we take that and replicate 
this model so that we can push that out through Women's 
Business Centers and elsewhere?
    Ms. Merlino. It is awareness of opportunity and meeting 
other women who have done it. I think it is incredibly 
important when you have so few women in your community or in 
your--meeting other women who have grown, knowing what the 
opportunities are, both in terms of government programs but 
also in terms of corporate contracts and things, understanding 
the opportunities, and understanding more about their own 
finances and how that works.
    Financial literacy in business is critically important and 
it is something that I think once they get into a Business 
Center, they often learn, but there are millions of women who 
never get into those places and I think there needs to be a 
greater outreach to women from those centers so that they are 
aware of places.
    We also provide community for these women, which I think is 
another issue. If you are shut out of networks and you are 
going to meetings where you are the only woman in the meeting, 
it is helpful to be able to have someone to talk to or to call 
on who has some experience in these areas or just has done the 
same thing so that you know sort of what the rules of the road 
are. We still are not aware enough of those, but I think there 
are enough of us in it with organizations with WPO and all the 
organizations represented in this room.
    There is enough awareness now, and somehow through the SBA, 
the Business Centers, there has got to be a way to share that 
information so women aren't reinventing this every time they 
start to do it, because we are moving women--it is surprising 
to us how quickly they are getting past the million dollar mark 
in revenue and it is a combination of these things, and the 
additional things that are being talked about here, these 
businesses would skyrocket.
    Ms. Le. Thank you. I appreciate that. When you are working 
with these women, are you finding that they are having--you 
talked about resources earlier. Are you finding that they have 
difficulty also accessing capital besides procurement, which we 
have talked about a great deal? Ms. Dolan talked about how she 
went and she had a contract and the bank said, no, you have too 
much with the government, which it seems like they would say, 
oh, great, you have so much with the government. Let us go.
    Ms. Merlino. Right. They pay.
    Ms. Le. Right. What have you seen along the lines of access 
to capital, because that is another one of the topics that we 
are very interested in--and please, other women, as well--are 
the women finding that that is one of their major barriers, 
that they can't grow because they are not being able to get the 
next level of capital funding or they are not being able to get 
the startup level of capital funding? Where is it that your 
participants are having the most difficulty?
    Ms. Le. They all have stories about challenges with access 
to capital, every single one of them. A lot of them, if it is 
taking out lines of equity on their houses to finance their 
businesses, and sometimes in their husband's name to do that. 
We have women who have not been able to start a business 
without financing from Count Me In because we do have a small 
loan fund available, who go on to--who get $5,000 from us and 
go on to be million-plus businesses. So that challenge remains.
    We have the wonderful situation of being able to offer the 
women who win Make Mine a Million access to financing through 
American Express Open, which has been a huge help to a lot of 
these women. But I think it is helping other agencies and 
organizations that provide financing to understand that these 
are great businesses and with financing will grow and, you 
know, produce great jobs and products and services and 
everything.
    Ms. Radermacher. Thank you. Ms. Dorfman, did you want to 
comment on this, as well?
    Ms. Dorfman. Yes. When you talk about access to capital, we 
see a few things happening. An example is I had a member go to 
Bank of America asking for a business loan only to be told that 
we are not giving business loans anymore, but we will take a 
look at your personal--what you have for personal wealth and 
let us see if we can loan against that. That is one issue.
    I have another member who went to get a loan and she was 
told by that lender that she needed her husband to sign off on 
it. She has a six-figure salary. He had a mid-five-figure 
salary. They didn't believe her. They said, well, you couldn't 
possibly be making more than your husband. You have to have him 
sign or we are not going to give you the loan.
    So this is not--back when you started this whole thing, it 
was the same thing. We haven't really moved forward. 
Additionally, when you are taking a look at the SBA loans, what 
we see is that the banks are now using it as a tease. Oh, yes, 
we have SBA loans, and now what happens is we get you in the 
door and we give you a line of credit instead, so you are 
putting your business on credit cards rather than using the 
proper financing vehicle to have that happen.
    Additionally, what we see now with the economy is 
definitely impacting because women have had to go and use their 
homes as equity, and now that the housing, the bottom has 
dropped out, they don't have as much funding available to them 
to grow their loans, and traditionally, women are given smaller 
loans anyway. They don't have access to the larger loans to be 
able to grow, so those are some of the challenges that we see.
    Ms. Le. Let me just ask a follow-up question on the SBA 
thing. So they are bringing women in saying, come get this SBA 
loan, and then they are ending up pushing them into a credit 
card. What is it that they are--I mean, obviously it is a bait-
and-switch, but what is it that they are telling these women 
and that they are coming back and telling you to justify taking 
them from a fixed loan, or a----
    Ms. Dorfman. Well, we are just starting to investigate what 
that all means. But we have seen that that has become an issue. 
They also cherry pick. They will take the cream of the crop out 
there, which doesn't leave--you probably have the same type 
of--it is a good, solid business plan and in order to do the 
business plan you need good funding, and in the old days, you 
could go get a business loan and now women have to rely on the 
SBA loans. But if we can't access them because we are being 
pointed in a different direction--additionally, some of the SBA 
loans out there have exorbitant fees attached to it, so a smart 
businesswoman probably wouldn't accept a small business loan 
with that on top of it. So those are some of the issues.
    Ms. Le. Thank you.
    Ms. Radermacher. Actually, I would like to turn it over to 
hear some thoughts from other people. I think, Faye, you have 
had your card up for a long time.
    Ms. Coleman. Yes. I just wanted to--thank you, Karen. I 
just wanted to sort of address the intersection of the 
procurement and access to capital issue that has come up, 
because when you said, Ms. Dolan said that her bank had refused 
to provide additional financing to support her growth, I think 
one of the things that is a problem that might possibly be a 
way to address this is a lot of banks and financial 
institutions don't understand Federal contracting and the 
underpinnings of how receivables financing works, for example.
    So many women business owners, women-owned businesses are 
in the service arena as opposed to manufacturing or something 
where there are hard fixed assets. So in the service industry, 
in my business and Ms. Hollister's business, your assets are in 
your head or with your people and not necessarily in a factory 
somewhere. The whole notion of understanding how the process of 
receivables financing in the Federal government sector works is 
something that I think a lot of banks, particularly the 
community banks who in many cases are the first point of entry 
for women-owned businesses who are starting or who have reached 
a plateau and they are trying to get from that $500,000 to the 
million or to the ten million or whatever, they are the point 
of entry as opposed to the large, the mega-national 
conglomerate banks.
    And so if there was a way that an entity--I don't know 
whether it would be the Women's Business Centers or some 
entity, SBA, some entity that could naturally bring together 
the financial sector, banks and financial institutions that 
have capital available, because we have the statistics to show 
that this is a growing industry, that there is money to be 
made, and particularly women, and the facts, the statistics 
verify that.
    I think it is a lack of knowledge and understanding of how 
the process works, and I can speak from my own personal 
situation. When I first started out, I tell people I was turned 
down by every bank. I went to all the large banks and they said 
no. I went to the small banks and they said no. And I finally 
got a small funding, which I, of course, had to guarantee, from 
a community bank, but that got me started to a point where 
within about a 9-month period, I had actually outgrown that 
bank's capacity to finance me. And they said, we just don't 
have the infrastructure. We don't have the staff. We don't have 
the understanding. So I went to larger and larger banks.
    But I do think that there is a need for more intervention 
with these financial institutions to train them in what type 
of--what the mechanism, how the procurement financing works and 
what the opportunity for making money for them and matching 
them, what they need to expect, what the regulations are, all 
of that. A lot of the banks just are not set up to do that, and 
so that is why they would say to somebody who--this is a 
wonderful opportunity for them to grow along with this growing 
company. Instead of saying no, no, no, it is too risky, oh yes, 
and compete for her business.
    Ms. Radermacher. Right. That makes a lot of sense and it 
does seem like more education is needed.
    Trish, I saw you nodding and----
    Ms. Costello. Well, I just want to jump right in here with 
Faye. There are a couple of things that I think very 
specifically the SBA could do, and to follow on with this and 
then to expand to a few others. You know, the idea of having 
banks compete for women's business is a very important one, and 
actually the SBA does have data on which banks are making loans 
to women. If we could access that data and have a little bit of 
funding to actually do a project, we could do something that I 
think everybody in Congress could be excited about, which is 
really stimulate competition for women's business by showing 
who is actually banking women right now and even doing a review 
of the terms, because it is not just who is banking women but 
there are some banks that are actually really taking advantage 
of women by putting much higher rates and really onerous terms.
    So who is banking women, and then let us put that out in 
the public, and I know as a woman myself, I would make sure, 
even though I am not into business right now, to make sure that 
that is where I was putting my business, and let them go out 
and start advertising and competing on terms for our business.
    I know from talking with the SBA that that data could be 
made available in 6 or 8 months if we had the kind of money to 
put those reports out. We can even do a demonstration project, 
take two or three States or a region and actually look at it. 
It is a little complicated with the roll-ups, but it still 
could be done, and I think in a very short period of time that 
could actually cause some significant changes for us that we 
could actually see and measure.
    I think the other thing in that area--there are a couple of 
other areas there, in addition, and a couple that I do want to 
just back up a bit on the education programs. The SBA, the 
Women's Business Development Centers have been very successful, 
but they are always kind of just gripping to the edge, not 
knowing if they are going to get more money again. And we have 
seen some fabulous Women's Business Development Centers go 
under or are at the risk of going under right now because the 
money is not--you can't plan on the money. You can't leverage 
it for other grants.
    And so I think if the SBA would really look at making a 
long-term commitment, understanding that this is still a seed 
project, you know. There is not the kind of money that is out 
there yet for them to be able to really take care of themselves 
and really be self-sufficient. But if you let them die, you are 
going to drastically impact the ability for women's businesses 
to progress in this way.
    In addition, there are other programs like Nell's and 
others all around that are really hitting that middle ground, 
and the SBA could put out some competitive grants, some very 
lucrative competitive grants to take those programs like Nell's 
and others and make sure that they are able to expand and 
handle more women and document what they are doing that is 
really working, because these people are on the forefront of 
work that has not been done anywhere else in the world, and it 
is an ability for us to again stay very competitive and take 
advantage of this and make sure that we don't have a lot of 
women that are demanding assistance or don't even know it is 
available and can't get it.
    And then, finally, I think there are some other programs 
out there. When we are looking at the Federal government, I do 
want to acknowledge the National Science Foundation in their 
quest to get more women and minorities into the SBIC and STTR, 
or SBIR and STTR programs. They have a special committee, and I 
think SBA should look at this as a model, where they have put 
together a special committee and they have made recent--they 
know every organization that deals with women electrical 
engineers and every woman and minority science association and 
organization in the country and they are aggressively going 
after them. So there are pockets that are doing really well out 
there and I think those are the ones we need to actually hold 
on to and make sure that we can take those and take advantage 
of it.
    There are a lot of other areas I have in the venture 
capital and angel, but I will pass for those right now.
    Ms. Radermacher. And we do want to talk about those, too, 
so we will get back to that. Lots of great points, everything 
from having banks compete for women-owned business owners, I 
mean, that is a great idea, the need for data from SBA, also 
figuring out what is working with that transition through the 
middle ground.
    I do want to give some other people a chance to respond, 
too. Margaret, did you want to----
    Ms. Barton. Yes, thank you. I am Margaret Barton and I am 
Executive Director of the National Women's Business Council and 
I am so very pleased today to see so many current Council 
members among us as well as former Council members. This is an 
important organization that was born 20 years ago along with 
the SBA Office of Women's Business Ownership and we are pleased 
to be the only independent policy voice for women 
entrepreneurs.
    And what I would like to go back to is the networks, the 
importance of networks. We are not a membership organization. 
We represent all women entrepreneurs nationally, so we have to 
rely on networks, and we have just had a series of five town 
hall meetings throughout the United States with another one 
planned in the San Francisco area for November. We could not do 
this without the networks, the networks of organizations that 
are represented on the Council like WIPP and WBENC and NAWBO 
and WPO.
    But it was amazing to us in our findings, which you can 
find on our Web site, as to how many women owners, business 
owners, did not even know about their local Women's Business 
Centers. I think SBA has been very delinquent in advertising 
and outreach. Outreach doesn't--the centers don't work unless 
there is outreach. The organizations understand the outreach to 
the State and local levels.
    And so we have really made an effort to reach out to 
connect, make some of the connections in our small way without 
very much budget and we will continue to do so because we 
believe without the networking, it will not work. This whole 
movement will fall apart. So we are committed to that.
    Also, I would like to make a comment about--back to 
procurement a bit. While the Council all agrees on the 5 
percent goal, they don't all agree on how to meet that goal. 
But one of the issues that we have that I think Tara Elder 
referred to is the bottom-up, and maybe one of the 
recommendations we can make is to link the contracting officers 
with their goals via their annual performance reviews. So that 
gives them some accountability, real accountability that they 
can understand, to help fulfill those goals.
    [Light applause.]
    Mr. Necciai. Ms. Barton, following on that note just for a 
moment--Eric Necciai from Senator Snowe's staff, her 
Procurement Council--actually, for Ms. Coleman, I am curious. I 
am reading from the Federal Register of the December 27, 2007 
procurement rule. I am curious, in your consulting with the 
Federal government, or anyone consulting with the Federal 
government, do you work in any of the industries of coating, 
engraving, heating, and treatment?
    [Laughter.]
    Mr. Necciai. Is anyone else on the--does anyone else in the 
audience work in that? I didn't think so. Does household 
furniture installation, kitchen cabinet making? Motor vehicle 
dealership? National security and international affairs? Well, 
nobody would be doing that because that is actually for the 
public administration. No private entity can do that, either. 
So the four industries actually go down to three industries.
    Ms. Barton. Right.
    Mr. Necciai. Nationwide, we are looking at 1,238 firms, at 
least at my last count, that could potentially go into these 
three industries. As of this morning, almost over 66,000 CCR 
registrants, women-owned firms. At the time of the report, it 
was 55. So we are looking at less than 2 percent that this rule 
would apply to after, of course, having to go through the 
discrimination issue, which is--there are two fundamentally 
flawed issues with the procurement rule.
    One of my questions is, what as far as relation to this 
procurement rule would you recommend, and anyone else on the 
panel recommend, to fix this rule? What Senator Snowe has done, 
and with the support of the Chairman, through various comment 
letters, and thank you for letters of support on various 
issues, but is to try and fix those two fundamentally flawed 
things. Is there anything else in addition to obviously 
implementing, which I know is something that Margot Dorfman is 
trying to get with her agencies, to try and get a workable--
along with WIPP--to try and get a workable program that can 
help increase that 3.4 percent to 5 percent? What other 
suggestions or tools do you think, specific to this program, do 
you think that need to be done in order to fix the rule?
    Ms. Coleman. Are you directing the question at me or----
    Mr. Necciai. It is directed to kind of somewhere else.
    Ms. Coleman. I think the first thing they can do is look at 
the data and see what the data show in terms of where the 
success stories are, where the growth is, where the potential 
and the opportunities are, and pay attention to that. I mean, 
that is obviously--that is a very easy thing that they clearly 
did not pay attention to, because to come up with these four 
areas that are so disconnected with what the data--and there is 
a multitude of data that you can tap into. So that would be the 
absolute first thing that I would recommend.
    But I also think that, again, being much more proactive, 
putting some action behind the rhetoric and being proactive 
about in the way that they encourage women, either through the 
funding and the sustaining of the Women's Business Centers and 
other mechanisms for reaching out and providing technical 
assistance to women-owned businesses to grow their businesses 
and to sustain their businesses. There are, through SBA and 
Department of Commerce, there are many other entities whose 
existence is presumably to provide this type of technical 
assistance and they are not being adequately advertised, as we 
have heard, used. The resources are not there.
    So when you have rhetoric that says we believe in growing 
the percentage of contracting by women-owned businesses and we 
are committed to meeting these goals, and I have not met a 
procurement official or a contracting officer who has not said 
that, but the actions are just not there.
    Mr. Necciai. There are a few other--I know Karen is going 
to ask a few questions. There are a few other questions I 
wanted to ask, as well.
    Ms. Radermacher. OK. Quickly, I know that you need to leave 
early and so I just wanted to give you a chance to talk, and I 
know you have been waiting, so----
    Ms. Sullivan. I feel like a student with my hand up.
    [Laughter.]
    Ms. Sullivan. But on procurement, thank you for that 
question, because Congress, we think, needs to strengthen the 
underlying law, and Senator Snowe has a bill. I know that 
Senator Kerry is working on one. So the first action we would 
recommend is that you go back and you fix some of the original 
language so that we would never end up with an unacceptable, 
insulting rule like the SBA published on December 27.
    Second, we need--going forward, we need to make sure that 
the bill that is going to be passed will allow it to be--will 
allow for the program to be legally sound. So we need more 
findings. That is why I think everybody is asking the 
participants in this audience to send their own stories and 
their own letters for the record. That would be a huge help.
    Third, you can't have past discrimination finding by an 
agency. I mean, that makes the program immediately unworkable. 
That has to be fixed.
    And then the other thing that everybody here has alluded to 
is that there are no cabinet makers in this audience. We have 
to expand the category and the group of people that are going 
to be covered by it and we need a much better interpretation by 
the Small Business Administration about which industries are 
under-represented.
    So I thank you for your efforts to fix things by putting 
together legislation which will greatly help us and hopefully 
we are never going to be in this situation again where an 
agency can put forth such an unacceptable bill.
    Can I just go back to access to capital, since I need to 
leave?
    Ms. Radermacher. Sure. Absolutely.
    Ms. Sullivan. OK. I just--the one point that everybody 
seemed to talk about was that while there is technical 
assistance by the SBA and some of their programs for those 
women who are beginning, who need to know how to apply for 
their initial bank loan, there is not the proper technical 
assistance for small businesses who need large infusions of 
capital to grow. I think a lot of people in this audience are 
in that situation. So we would ask for an expansion--we meaning 
WIPP and all the organizations that belong to it would ask for 
an expansion of that program, those programs, to be able to now 
help women who are in a growth mode and who are trying to 
secure large government contracts.
    We also--can I say one more? We also believe that Congress 
should restore the loan guarantees and subsidized rates so that 
the SBA loans are more acceptable. I mean, the reason there are 
high fees is because it has to be a self-sustaining program. So 
we would urge the Congress to go back to that.
    Ms. Le. Let me ask you about that, Ann, because one of the 
other issues I do is SBA lending, which is almost as fun as 
women's but not as much.
    [Laughter.]
    Ms. Le. My question is, what size of loan are you talking 
about? In, for example, 7(a), we can go up to two or three 
million. What size are you looking for?
    Ms. Sullivan. Well, I think there was a study done by a lot 
of angel investors and it seems to be that the big gap is 
between $500,000 and $7 million, and that is, by the way, why 
we think angel investors, who are an important source of 
capital in that in-between stage, should be given additional 
tax incentives so that they want to invest in our business.
    I mean, WIPP surveyed their--did a 2008 survey. Sixty-six 
percent of the respondents used bank financing backed by home 
equity loans. Forty-nine percent used credit card financing. 
Thirty-six percent got their funding from family and friends, 
and I know everybody is not wealthy. So this means that they 
are relying on their own sources, begging and borrowing to be 
able to grow their companies versus more traditional ways that 
perhaps male-owned companies have access to.
    Ms. Le. And you talked about technical assistance or 
training. I think that that may be a little different than what 
we normally think about when we do technical assistance with 
loans. So what type of training do you specifically see for 
those larger loans or that gap in the middle for the women 
trying to grow that are already established?
    Ms. Sullivan. Well, I think there is a whole set--at least 
I hear from the women business owners--they are trying to 
assess whether they ought to take, you know, what does it take 
to get equity in that amount, at those levels. What should you 
do in terms of taking on a partner? What should you do in terms 
of equity positions? What do you need to look out for venture 
funding? You know, we hear horror stories about people just 
taking over the company. So there are all kinds of questions 
that need to be addressed that nobody can answer that is just 
an expert in how to fill out a startup bank loan.
    Mr. Necciai. And thank you so much for your support in this 
issue and your members' support and the Chamber's support on 
particularly the women's procurement issue.
    I wanted to just briefly touch on a few comments. Ms. 
Hollister, you had mentioned mentoring, how that may be a 
useful tool for women-owned businesses. There was a bill 
November 7 of 2007 by Chairman Kerry, S. 2300, with the support 
of the Ranking Member, actually creates a mentor-protege 
program for women-owned firms. So we feel that that tool could 
be very useful for women-owned firms.
    Another thing we talk about is bundling. Bundling was an 
issue that had been brought up on various different 
participants. That bill also attacks bundling on various 
different levels by increasing the eyes on the contracts. The 
procurement community in the Federal government is decreasing 
and it has been decreasing since 1980, and obviously with more 
procurements happening, we are now at hundreds and hundreds of 
billions of dollars being procured and it just keeps to grow. 
Those fewer eyes and those more dollars just ultimately results 
in more bundling. So one of the things that the bill does is 
also create a PCR program, Procurement Center Representative 
program, and there are more PCRs that are looking at this. So 
there is legislation currently by the Chairman and by the 
Ranking Member to address some of these vital issues.
    Ms. Jacobus and Ms. Barton, you had mentioned also the 
SBIR. SBIR is another piece of legislation that this Committee 
recently passed, just recently last month or the month before, 
to address more reporting after following the recommendations 
of the National Academy of Sciences to report how many women-
owned firms are out there, to get that data. So you need the 
data in order to address the problem, so that is another 
crucial aspect that exists out there.
    Ms. Sullivan had to leave, but I just wanted to again thank 
her and thank all you members for addressing this vital issue.
    Ms. Radermacher. Actually, I do see Sharon, Heidi, and Lisa 
all have your placards up. I do want to bring the conversation 
a little bit to something that Ann mentioned, which was venture 
capital and how that is one of the areas where more funding 
needs to go to women-owned companies. I wanted to open up that 
a little bit, and I know that, Trish, you have done a 
tremendous amount of work here. I don't know if you guys want 
to comment on that or something else, but I did want to start 
that conversation.
    Ms. Costello. Well, it is, I think, a critical piece of it, 
both angel investing and the venture capital investing in 
women's businesses. Unfortunately, what we have seen over the 
last 10 years is that those percentages are staying relatively 
constant at below 10 percent, closer to 6 percent, sometimes 
under 6 percent down to 3 or 4 percent, and actually even over 
the last 20 years, you are not seeing much of a change, 
although those were like 2 and 3 percent early on. So the 
numbers just have not been, from the standpoint of investment 
capital, really been moving into women-owned businesses.
    Now, there are a couple of things that I think we could do 
that--that we kind of touched on that could be very helpful, 
and one that Ms. Sullivan just mentioned before she left is 
that there are a number of States that have started to use tax 
credits very effectively in getting more angel investing into 
their local companies, and that could be a very effective tool, 
looking at a number of different tax opportunities to invest in 
women and even in women and minorities. There are ways that you 
can also put some protection around that. You could have 
programs that certify or put some guidelines around those kinds 
of investments that would make them very effective.
    I also know that the U.K. has a program where they will 
match investments of certified angels into startup companies. 
They will actually match them dollar-for-dollar. So there are 
some very interesting programs that are going on outside of the 
U.S. that is causing more money, equity investments to go into 
startup companies.
    And frankly, I mean, those are areas where you really get a 
wealth machine going. If the E.U. and other countries get way 
ahead of us in that area, that is something that we are going 
to be playing catch-up on. So I think that both with angels, 
there are a number of different ways that the SBA and the 
Congress could drill down on to make it more effective.
    Women have to know more about being able to access that 
money, and again, that is another area where there should be 
education going on. I know at Babson, we actually incubate our 
women alums that we believe have the potential to get equity 
investing and we put a whole team around them. And sometimes it 
will take 12 to 18 months or longer, 2 years, before we really 
have them ready to go out and target the equity market. And it 
will sometimes take that. But the results of that can be so 
amazing.
    And once they figure this out, this isn't just a one-time. 
These are women that can become serial entrepreneurs, that can 
do it over and over and over, creating large businesses that 
are going to create jobs and wealth for our country.
    And then on the venture capital side, I would just toss out 
to you that a number of years back when we had the SSBICs, we 
were really ahead of what the market could actually provide, 
and you know, that happens with startups all the time. The 
technology is ahead of where the environment is. At that point, 
we did not have, I believe, enough women in venture capital 
that had a lot of expertise and experience. So we were putting 
money out and our market wasn't really at the place where it 
could take advantage of it.
    That is not the case today. The timing is perfect to 
actually get some significant SBICs targeted to women out there 
and we could see some very successful investments made and some 
great success stories.
    There is another thing that I would like to toss out, what 
I call a women's kicker. There are--in all the mainline venture 
capital firms now, and there aren't that many, but in all the 
mainline venture capital firms, you now have at least, in the 
average, at least one or sometimes two senior partners in those 
firms. There is an opportunity for some kind of, I think, very 
innovative idea where you say, everyone that has two women 
partners in mature firms, we will give you $20 million to focus 
on women over the next 5 years. It is like an SBIC-type of 
thing, but different. These are mature firms that would not 
ever go for SBIC money.
    And you could potentially have the impact of having 
investments made by these top venture capital firms with all 
the resources they bring to bear toward women. It has never 
been done before and I think this is an area where you have the 
most experience putting the money in women's business that can 
draw so much more and leverage so much more.
    So I might actually think it is something like that, some 
kind of very experimental programs using some of the best 
talent out there now. And as I say, we have some tremendous 
women VCs that are doing fabulous work now. We didn't have them 
10 years ago. We probably didn't even have them 5 years ago, 
but they are there now.
    Mr. Willis. Hello. My name is Greg Willis. I am Counsel on 
the Senate Small Business Committee and I wanted to follow up 
on the VC question. One of the things that we are trying to do 
in S. 2920 is increase leverage to women- and minority-owned 
firms so that they can invest in--well, the leverage would go 
to the VC and then the VC would access that if they did a 
percentage of their business with women or minority businesses.
    One of the questions that we have is what has been just on 
the ground level experience for women business owners in 
attempting to access venture capital? I mean, what is the 
experience when they have gone into the room? Who have they 
been meeting with? What have they been saying? And anybody at 
the table, if you have had experience of trying to access 
venture capital, whether you have been successful or 
unsuccessful, could you kind of give us some insight into what 
you are dealing with on the ground level in trying to access 
venture capital. If nobody at the table, is there anyone in the 
crowd who could speak to that? Yes? Could you come forward?
    Ms. Johnson. I am Jeanne Johnson. I am from Kansas City. I 
own an information technology consulting firm that is located 
in St. Louis, Missouri. We are a high technical firm, as well, 
so it is nice to have technical people in the room. We are in 
the missing middle, and the banking missing middle looks at us, 
too. Venture capitalists are hesitant to invest in women 
businesses because the climate is not conducive for growth.
    So my recommendation from the individual out here in the 
middle with a multi-million-dollar company, many, many 
employees, is that the Federal government needs to lead the way 
and show the example. Bundles exist. Audit the bundle at the 
end and make sure that, if it is verifiable, that the subs who 
were quoted at the beginning are then used and paid. They can't 
escape it.
    Also, if there are women-owned businesses that are 
receiving prime contracts that are not women-run or women-
owned, they are defrauding the Federal government. If I defraud 
the Federal government, I go to jail. I recommend punitive 
measure.
    And that is all I have. Venture capitalists are hesitant 
because it is tough for us and we have to fight. We love to 
fight. We are very effective. But we just need to make sure 
that it is a level playing field. Thanks.
    Ms. Costello. We have to understand, too, that 90 percent 
of men that apply for venture capital get turned down, too. I 
mean, I just want to put that out there. We have to be 
realistic about----
    Mr. Willis. I think I see a hand in the back. Ms. Payne, 
Joann?
    Ms. Payne. Joann Payne, and I am not going to speak to 
venture capitalists even though this person right here beside 
me is an expert at it, Heidi. But I do want to go to the prime 
contracting procurement and subcontracting since this wonderful 
lady right here suggested it.
    My suggestion, let us just throw away the rules and 
regulations and start over again. We have an opportunity to put 
together a program for women that could be a hallmark and 
actually a program for all of SBA now and all of procurement 
programs. I think our system is broke. There are not a lot of 
prime contracts for women in general in government and 
subcontracting, there is a lot of opportunity.
    I represent women highway contractors. We do about, what, 
$2.2 billion a year in subcontracts. Our subcontracting program 
on the other levels is broken. There is so much available. 
Break up the bundling. Give the women an opportunity. You set 
goals. You make sure that the prime contractors give those 
contracts to those individuals that they are contracting out 
to.
    Women do beautiful work, do great work. They can do the job 
and they can earn the money. It is as simple as that. I mean, 
this is not rocket scientists, I am telling you. If you look at 
the DBE program and how it works, it is the best program, 
procurement program, we have, and it is very successful.
    Ms. Radermacher. Great. Thanks so much, Joann.
    Actually, I think we had someone over here who also wanted 
to make a quick comment, if you can squeeze in.
    Ms. Wang. I am Rose Wang, Binary Group. My company, we have 
over 100 employees in Federal government contracting. But my 
previous life, I am a serial entrepreneur. My previous 
business, I tried to raise venture capital and I was a 
spectacular failure in that venture. Mainly, I think, my 
experience is I did not have the wherewithal to get to the 
network, to know the right people, to get to the right--present 
to the right people.
    There is a national--one of my best friends actually just 
had to dissolve one of her businesses that was backed by 
venture capital. Only 1 percent of entrepreneurs in this 
country are backed by venture capitalists that are women, only 
1 percent. We don't have a big network.
    My current business, we are in the missing middle now, so I 
put small business--I joined a venture fund as a result. I want 
to see more women entrepreneurs have a chance, because nobody 
is--not enough people, I should say--it is tough enough to have 
an idea that is presentable, but it is even tougher to relate 
to people in the room when you don't have access to that 
network, to the knowledge, to the body of knowledge. That is 
one of the key things. And no mentors. So that is my 
experience.
    Ms. Radermacher. Yes. Thank you so much for adding to that.
    I actually do have one more person and I actually do want 
to talk a little bit more about the networks, which we said we 
would talk about today, and we are starting to run short on 
time. But if people could keep their comments brief so we can 
get in as many comments as possible, that would be great. Go 
ahead.
    Ms. Porges. Hi. My name is Shelly Porges. I am a serial 
entrepreneur, as well, as well as being the Vice Chair of the 
Board, Nell's board, Count Me In for Women's Economic 
Independence. I wanted to talk to you about two of the five 
business experiences that I have had, two of them with VCs and 
I will call it alternative investors.
    The first was a venture that actually I didn't found. It 
was founded by another woman, however, and I came on board as 
the Chief Marketing Officer. We found that there were a lot of 
closed doors to getting the financing for what was a great 
business idea, what became at the time, considered to be one of 
the ten fastest-growing online ventures, a company called Third 
Age Media.
    What was our successful strategy in the end was that we 
brought on board private investors who were friends of the 
founder and of mine who were themselves connected to the 
investment community and it was sort of the functional 
equivalent of having to get your husband to sign for your loan. 
It was essentially getting these men on board who had 
credibility.
    Having said that, I was Chief Marketing Officer for Bank of 
America during a big turnaround where we went from number 23 to 
number 1 in consumer lending in the country. So we had people 
on board ourselves who had tremendous business experience and 
credibility, but it wasn't until we got those guys on board 
that we could access the VCs. So that is part one.
    My second experience, however, was partnering up with a 
very well known investment banker for the next venture and we 
had no problem there, and he was a man.
    Ms. Radermacher. Great. Thank you very much for adding 
that. Actually, that is one of the comments I have heard 
actually from a number of women, is hiring men in order to get 
access to networks or to get jobs. So I do want to quickly ask 
about networks, and before we close, I will give Sharon, Heidi, 
and Lisa a chance to respond.
    One of the things that we hear over and over again, and 
Rose mentioned it here, having access to the decisionmakers and 
to the appropriate networks, and if someone would like to 
respond to that, or we can start with Heidi or Sharon if you 
would like to.
    Ms. Jacobus. I would like to speak about the access to 
equity, which is an older topic now, but every business needs 
access to equity. You do the work first and then your customer 
pays you, and so you have to have money to do the work.
    I went 20 years ago, like Dr. Coleman did, to a bank with a 
signed Federal contract and asked my banker for a line of 
credit and the banker said, no, it doesn't count for anything, 
and I was mystified but I drilled down to figure out why. It 
turns out that Federal contracts don't fall under the Uniform 
Commercial Code, and so therefore the bankers comply with a 
formula that says, here is my mix of banking assets and here is 
my risks and here are the loans I have out. But Federal 
contracts count for zero in the bank examiners' metrics.
    So it is really not a mystery. It is confusing why it would 
be, but the reason is the Federal government does not allow 
their contracts to be assigned. So if I am owed money by a 
department store and something happens, my debtor can go to--my 
loaner can go to the department store and get money. But if 
something happens to me and my contract is with the Federal 
government, they can't touch it. So they have no back-up plan.
    Ms. Radermacher. Right. That makes a lot of sense.
    Actually, Sharon and Heidi, and we will allow you guys to 
speak, as well. Again, if people can keep it brief, just 
because we do want to end on time or close to it.
    Ms. Dolan. I just have one quick point. I want to say that 
on the mentor-protege program under the 8(a) in Title 13, as 
codified in the CFR, the mentor can invest up to 49 percent in 
the protege's firm, and that would be a great vehicle. The only 
problem is it is such an arduous task to get your mentor-
protege approved by the SBA that by the time you get it 
approved, that mentor is down the road looking for somebody 
else. This happened to me personally. This was a very large 
company. But the task that it took to get them to the table to 
look at things--they couldn't even interpret the CFR properly. 
They don't know how to interpret that program if it is just a 
little bit off.
    So I think that is a great vehicle that could be used for a 
lot of these small businesses. I am an 8(a) firm. I am going to 
be graduating next year. But we tried to get into that to get 
an infusion and we just had so many impediments and were met 
with so many barriers that I just threw my hands up and said, 
forget it. It is never going to work.
    Mr. Necciai. I would like to get your card after this. We 
could discuss your story and see how we can address that issue.
    Ms. Dolan. Absolutely.
    Mr. Necciai. Thank you.
    Ms. Radermacher. Actually, Sharon, do you want to comment, 
and then we will let both of you guys comment, as well.
    Ms. Hadary. Yes, and I love data, so I am going to throw 
out--instead of telling a story, I am going to throw out a 
couple of disparate pieces of information. I want to focus on 
the other side of the equation. We are talking about how are we 
making venture capital, how are we making higher-level loans 
available to women. But what we also see in the data is that 
women in many cases do not understand. About 60 percent of 
women business owners, when we ask about venture capital, don't 
understand why they want equity, what equity investment would 
do for them, how they would go after it, and we hear again and 
again, I don't want to lose control of my business.
    So I think, looking at the Women's Business Centers and 
other groups, there is a whole--there are two sides to this 
story. One side is we have got to make it available, but the 
other side is we need to increase that financial 
sophistication, and I think this is Trish's term, of women 
business owners.
    We also see, and I find this very interesting, we have hard 
data that shows that the only consistent statistically 
significant factor that will predict whether a women business 
owner will get capital and grow her business is not the size of 
the business, length of time in business, or the industry. It 
is her goal for growth. And I think what Nell has done that is 
so spectacular is she has made women declare and therefore 
internalize a goal for growth, and as a result, they are moving 
ahead.
    So I think those are very important things. We are still 
seeing that there are so many women who say--I think it is 60-
some percent of the women who say they would prefer not to 
carry debt. So this whole issue of financial sophistication and 
training, I think is very important on the women's side.
    In terms of networks, I think that is also an important 
issue because if you are not visible in these networks, you 
don't get access to capital, you don't get access to markets, 
and what we see looking at women overall, and particularly we 
saw it in our study of women of color, is that women tend to 
stay within their community and their networking. They tend to 
belong to fewer and smaller networks, and that much of their 
network is really for personal support as opposed to for 
business issues and getting business. So I think that is a 
whole area--this whole area of not only access to networks, but 
when the women come into these networks, to make sure that they 
have the introductions and the credibility.
    Again, we heard, particularly in our study on women of 
color, they said, yes, I go to the meetings and nobody notices 
that I am there. So I think there is another area, that we need 
to get them to expand their networking, but we need to find 
ways when they get into the networks that they have the 
introductions and they have the credibility.
    Ms. Radermacher. Great. Thanks so much, Sharon. A lot of 
very important points.
    If you guys would like to comment----
    Ms. Maples. I can be very brief.
    Ms. Radermacher. Actually, can you give us your name?
    Ms. Maples. Oh, I am sorry. I am Karen Maples. My company 
is MYUTIQ LLC. We are based in Arlington, Virginia. There is 
actually one very good success model for helping women 
understand how to take more advantage of VC funding. 
Springboard has done programs throughout the year, and I have 
attended events and seen firsthand the incredible amount of 
confidence they are able to build in women and how they present 
their business and their business idea to a VC group so that 
they can actually start to participate more in VC funding. So 
as a model for something specific that we could do more of, I 
think that is a very important thing for us to look toward. 
Thank you.
    Ms. Radermacher. Great point. Thank you.
    Ms. Shrier. A tremendous amount of Federal contracts are 
going to deal with important issues in energy and the 
environment. Ms. Jacobus pointed out earlier how many women 
have the degrees in those fields, have worked through firms in 
those fields, and often are not getting to the top levels in 
those fields. Next Friday, the Committee on Women and Science 
and Engineering and Medicine at the National Academy of 
Sciences is having a whole workshop on women in transition in 
their careers and looking at getting into tenure. For a lot of 
women who are in practice in using these professions, that 
transition becomes starting their own business so that they can 
fully practice and fully engage in their professions.
    It is absolutely critical that we make sure that we are 
supporting those women who are starting businesses in those 
areas. Often, we are coming in as subcontractors to these 
larger bundled projects because these big engineering firms are 
getting the contracts. I used to do business development for a 
large firm, a large engineering firm, and we would look for the 
women-owned business. Oh, yes, that is going to be good for the 
team. That is going to help the proposal. But it is absolutely 
critical to make sure that they are fully engaged in the actual 
use on the projects.
    Ms. Radermacher. Great. Can you tell us your name and which 
organization you are with? Thanks.
    Ms. Shrier. I am sorry. My name is Cat Shrier. I recently 
started a firm here on Capitol Hill called Watercat Consulting, 
doing water resources planning and policy work throughout the 
country.
    Ms. Radermacher. Great. Thanks so much.
    Ms. Gaydos. My name is Valerie Gaydos. I am an angel 
investor. I manage the Private Investors Forum in Philadelphia 
and also I am involved in the Pennsylvania Angel Network, which 
seeks to fund these early stage companies.
    You know, I was downstairs in the other room when I missed 
some of the questions that were asked before, but the number 
one thing is that we do see a lot of women businesses. The 
problem is they are not scalable. The problem with that is that 
scalable technologies typically tend to be in technology. I 
think to solve the problem is encourage more women to get into 
technology fields to create products and devices that are 
scalable. So, I mean, there is an education component to that 
early on.
    Second, I see that women get into mostly service businesses 
because that is what they do, and it is because there is a lack 
of bank loans and the early stage financing which allows them 
to keep their equity. So I think looking at banking regulations 
and loosening up banking regulations for women-owned businesses 
would be very, very helpful.
    I think also when you mentioned about giving tax credits, 
someone mentioned giving tax credits to establish venture 
capital firms, as an angel investor and an early stage 
investor, I don't think that is the issue. I think what the tax 
credits should go to are the women businesses that are 
developing the business, because the problem isn't on the end 
that these guys don't necessarily look at these businesses, and 
I know maybe some of you said that you had problems getting 
access.
    The thing is that when a business plan comes across my desk 
and I see that it is not scalable, honestly--I mean, I do a 
pretty good effort, make a pretty good effort to call some of 
these women back and explain to them and say, hey, look, this 
is a good business but--it may be a lifestyle business, but I 
am not going to invest in it. And so I try to do my best to try 
to educate them, what does scalable mean? What are the elements 
that a venture person is going to invest in that business?
    That is where I believe that we need more education and 
more help, but I think it starts with banking and it starts 
with getting more women into technical positions.
    Ms. Radermacher. Great. Thank you for that.
    Ms. Baker. Hi. I am Tina Baker. I am the CEO of Cadence 
Group. I am also the Georgia Chair for WIPP. I just want to say 
that--I want to reiterate what someone said earlier about 
leveling the playing field and enforcing the opportunities at 
the government level, because in working with successful 
businesswomen in Atlanta, there are women that are in the 
private sector and doing well and are not moving into the 
government sector because there is an obvious lack of 
opportunity. So there is a large cost for bidding a Federal 
procurement. You can easily spend $50,000 just to bid. And if 
there is not a recognizable opportunity for women, then why not 
take that money and use it in the private sector instead.
    And the other thing I want to point out, in doing work with 
the Federal government ourselves since 1992 and doing that 
through small business set-asides, that there is a need to 
protect those set-asides, I believe, as you move forward. So, 
for instance, for us in particular, we had a contract from 1992 
through 2005. The last contract with the same agency was a $12 
million contract. That contract was bundled in an A-76 study 
which was then awarded to the government instead of outsourced, 
and then a large percentage of what was a successful small 
business set-aside for 13 years was given without a requirement 
for a bid process as a subcomponent of the A-76 award to the 
government to big business. So there are problems with bundling 
that go beyond just initial offerings. Thank you.
    Ms. Radermacher. Great. Thank you very much.
    Yes, one more. Go ahead.
    Ms. Bierman. I am Christine Bierman with Colt Safety out of 
St. Louis, Missouri, and Las Vegas, Nevada. I just want to go 
on record saying I testified--I came to Washington and 
testified for H.R. 5050 20 years ago and I am very disappointed 
that we need to continue to have this conversation today. We, I 
feel, haven't gone very far, specifically in women business 
owners contracting with the Federal government. That is my 
core.
    Ms. Radermacher. OK. Thank you very much.
    I do have two more things that--one more question and I 
promised Senator Kerry we would also prioritize right at the 
end. Oh, and Linda has one question. We have talked a lot about 
the missing middle and some of the other issues. The one thing 
we haven't talked as much about, and I at least want to get a 
little bit of feedback, is the microenterprises and if there 
anything specific to that that anyone wants to bring to our 
attention or that we should look at more. I did want to hit on 
that at least briefly.
    Actually--oh, did you want to comment? Go ahead. You did? 
OK.
    Ms. Elder. Probably 90 percent of the businesses we see are 
microenterprises and it goes back to access to capital and I 
want to touch back on that. I have to. SBA's top lenders last 
year as far as number of loans were Innovative Bank and 
Superior Financing. Those were Community Express Loans. Those 
are great. It is a great program. It does put money out into 
the economy. It does fund small businesses. However, those are 
awarded at prime-plus-3.25 or 4.75 percent. That is huge, huge 
percentage-wise as far as small businesses go.
    Now, that needs to change. Something needs to be done with 
that so it is not that high of an interest rate for small 
businesses just starting out.
    We know that many, many women's businesses start with a 
small influx of cash. Fifteen-thousand to fifty-thousand get 
hundreds of businesses started every day. In addition, there is 
no collateral requirement with those loans, so it makes it very 
attractive. For women to go in and get a loan for collateral is 
almost as hard as to go in and get a loan for a small business.
    I had two women who were very successful. They went to get 
a business. It took them 2 years because they couldn't get a 
bank to give them a business loan. They had collateral. They 
had credit. They had everything they needed. They were asked 
for their husbands' signatures. It still happens today.
    Ms. Radermacher. Wow.
    Ms. Elder. Yes, every day. However, the networks are 
essential. If they know us, if they know the Women's Business 
Center, if they know a bank, if they know a Chamber, if they 
know who they can come and talk to, they can find the other 
resources.
    Going back to the networks, it is imperative that those 
networks exist. We had a conversation in here earlier. Women 
are great at networking. However, we have our own little 
network, our own little circle that we cultivate and we create 
and we strengthen and we almost guard because we worked so hard 
to create it. That is our thought, too, because we don't share 
that circle very well. We don't take the time out of our busy 
schedule to say, wait a minute. Let us share this circle.
    And I think we have to get better at that, and I don't know 
how you can help us with that, but I think somehow we have to 
get better at the Chamber sharing the circle with the Women's 
Business Centers and the Women's Business Centers sharing that 
circle with the research and the businesses sharing that circle 
with us so that all of the startup businesses, all those in the 
middle businesses, and all those million-dollar businesses have 
a place to come together so that those networking 
decisionmakers are available.
    Ms. Radermacher. Great. That makes a lot of sense and I 
feel it touches on what Sharon and Rose and others have said.
    I will give Faye and Trish and Margot a chance to respond 
and then I do want to just quickly at the end talk about what 
kind of the priorities are and what they should be in order if 
you guys want to think about it. Go ahead.
    Ms. Coleman. Real, real quick. I just wanted to comment on 
a comment that Heidi had made about her experience with getting 
bank financing for your contracts. My experience, and I do 
understand about the UCC, but I do think that sometimes banks 
use that as an excuse, because I can actually say my experience 
has been that, particularly earlier on, when I needed to get 
larger and larger financing for larger contracts, the bank 
actually said the only way we will finance your contracts is if 
you assign them, and I did assign them. Now, later on, it was 
not a requirement.
    So I know from personal experience that if they are so 
inclined, they will find a way to allow those contracts to be 
assigned and they did that because that was--that bolstered 
their comfort level because we were--again, the whole issue of 
not having collateral and all of that. But I have heard that 
situation before. But I know that there are ways to get around 
it. Despite the UCC requirement, there are ways to get around 
that if they are so inclined.
    Ms. Radermacher. That makes sense. Thank you.
    Trish, and then Margot, very quickly.
    Ms. Costello. Just a quick thing. I do have copies of the 
new Women's GEM report and it is true, it doesn't matter where 
you live. If you live in Latin America or Africa or here, the 
number one issue is robust professional networks. If you are 
going to grow your company, it is just absolutely completely 
clear in the information that is coming out.
    And then the other thing is, I wonder if--I am starting to 
think that all of us that have been in business for many years 
should really take a step back and look at if the business that 
we are in today really is what is the vehicle that we should be 
using as entrepreneurs going forward, because the world has 
changed dramatically and that issue of, you know, can I grow 
it, a lot of it has to do with the type of business you are in 
and it was a chicken and the egg. Even a few years back, we had 
to get into businesses that didn't take money because we 
couldn't get money.
    Ms. Radermacher. Right.
    Ms. Costello. Now we are in businesses where we can't get 
more money. And I would make a provocative comment and say 
probably 30 percent of us should shut down the original 
businesses we were in and look to our future in another 
vehicle, or a portfolio, and that would be very hard for women, 
for we as women to do. We have personal connections. But I 
think that this is something--what we should start thinking 
about, that whole idea of the business as a vehicle and what we 
should be driving today, not our father's Oldsmobile.
    Ms. Radermacher. Right. Thanks, Trish.
    Margot?
    Ms. Dorfman. Back on access to capital, the microlending 
should be put back into the SBA lending platform. That is key. 
The other thing is that we see is when we talk to banks about--
and this is Wells Fargo did this--oh, isn't it wonderful we are 
lending X-percentage to women. I think it was they lent $10 
million to women-owned firms and isn't this wonderful, and we 
said to them, well, what is the greater--how much did you lend 
to the full amount? Give us some specifics on these numbers. 
And they came back and said, well, we can't really do that 
because legally, we can't give out the race or the gender of 
the lendees.
    The issue we see is now that is covering their tracks so 
that they can be a little loosey-goosey and not tell us the 
truth and I think we need to open that up so that there is 
transparency and put that into play where they should be 
responsible. If they are going to say they provide lending to 
this number of women-owned firms or a generic thing, we want to 
know across the board all the details on that.
    Ms. Radermacher. OK. Thanks so much.
    Linda had one quick question. We will keep it brief. We do 
need to prioritize and then we will be done.
    Ms. Le. Actually, I think that this question ties into all 
of what we are talking about. The Women's Business Ownership 
Act was passed 20 years ago. The whole purpose of the Act was 
to try to drive women entrepreneurship and development. We know 
that Women's Business Centers can't be the solution to all 
things, but I am concerned about the level of outreach that 
they have made, that they haven't ever helped Ms. Hollister and 
that they may not have reached other of the many women 
businesses that are out there. And so the question is, how do 
we bring these women into either organizations like Count Me In 
or into Women's Business Centers?
    I think that, yes, there is a resource constraint, but also 
what can the SBA do to do better outreach, to bring in these 
women to make sure that they understand that these resources 
are available so that we can help these women starting off not 
just grow their businesses, but even choose the type of 
business that they should be in so maybe it is more scalable, 
that type of thing. How do we, you know, propel the success of 
Women's Business Centers so that they are not just reaching 
this group of women, but this group of women?
    Ms. Costello. Why don't you start.
    Ms. Dorfman. I would be glad to. When we take a look at 
overall the SBA, the funding that has been cut from the budget, 
we see two tiers. We see here at the national level where the 
policy is driven and the budget is driven and the goals are 
set, and then when you get into the regions, you see that 
because the budget has been cut, there just aren't the 
resources that they should have to do the programs, whether it 
be lending, the SBIR, SBIC, the outreach to the community. I 
know in the communities the SBA folks are just as frustrated 
because they want to do a good job. So I would say that the key 
thing is to make sure that the budget is grown and the 
resources are truly made available so that they can do the work 
that they need to do.
    Ms. Le. Thank you, and Karen and I have worked on that 
multiple years, hoping we are going to have better success.
    Ms. Radermacher. And actually, I do just want to make that 
into a bigger--it ties right into what I wanted the last 
question to be and what Senator Kerry mentioned earlier. We 
have heard so many great ideas about what we can do and I do 
just want to hear from people what you all think are the top 
three or the top five, or even just the top issue that you 
think either needs to be addressed, or if you have a specific 
idea about how to do that, we would definitely like to hear 
that. I don't know if, Trish, you want to start, but then Kip 
and Virginia.
    Ms. Costello. I was on the last one.
    [Laughter.]
    Ms. Radermacher. OK.
    Ms. Costello. Yes. I was on the last question.
    Ms. Radermacher. Kip, do you want to start?
    Ms. Hollister. Well, I think it is clear that this 
procurement process has to be at the top of the list. I think 
all of us have talked about it. I think the audience is 
compelled to speak about it. And unfortunately, I don't have 
the--I have the what, but I don't have the how, and I think 
that is feeling frustrating to me sitting here. But if we could 
make it easier and point of entry easier and tie it with what 
we are talking about as the networking and the education behind 
it so that there is a collaborative effort to engage and then 
measure those results, I think that would be phenomenal.
    Ms. Radermacher. OK. Good point.
    Ms. Le. Thank you.
    Ms. Radermacher. Virginia, do you want to----
    Ms. Littlejohn. Rather than mentioning a specific policy 
issue, I think it is sort of the point of view of what we focus 
on. When we were doing H.R. 5050, we were much more at a 
startup or much earlier stage. I think if we look at the 
missing middle piece and growth and how we move beyond that 
with different components that relate to the capital piece, the 
VC and the angel piece, the procurement piece, which honestly I 
have spent 25 years of my life often on addressing that issue, 
I think if we look at it rather than the incremental components 
but as what we do to spur growth, by looking at missing middle, 
where all of the gaps are that will really be able to advance 
the ball.
    And I wanted to mention to everyone that Quantum Leaps, my 
organization, and the National Women's Business Council are 
collaborating on developing a road map to 2020. The women's 
business owner groups will all be plugging in on pieces of 
that. But I think if we look at it in a strategic way rather 
than just this piece, this piece, this piece, but in terms of 
what has been lacking for a long time, I do think the Federal 
procurement is one of the biggest lacks.
    Ms. Radermacher. OK. That makes a lot of sense. Thank you.
    Actually, do you quickly want to add in?
    Ms. Anderson. Yes. Thank you for letting my voice be heard. 
I serve as the National Public Policy Chair for the Association 
of Women's Business Centers. My name is Petrea Anderson. I am 
also the Executive Director of the Canisius College Women's 
Business Center. And I have to say, I think collaboration 
without duplication is critical moving forward. We do a lot of 
collaboration in the local market in Buffalo, New York, with 
the Small Business Development Centers and SCORE. We focus on 
existing versus startup businesses, and I have to say, we are 
an economic development program, not a social service program, 
and there is confusion in the marketplace. If we work together, 
we can really make a big difference in women's business. Thank 
you.
    Ms. Radermacher. Thanks so much.
    Sharon and Margot?
    Ms. Hadary. I want to echo what Virginia said, that we need 
a strategic approach to this. Partly, it is realizing how women 
business owners and their businesses have changed. I think we 
need to be very sensitive to the fact that increasingly, it is 
a diverse population made up of women who are African American, 
Asian, Latina, and many other races.
    And unfortunately, I don't think we can say, let us focus 
only on the Federal procurement or only on access to capital or 
only on networks because my experience over 20 years is that 
these are so inextricably integrated. You can't do the Federal 
procurement and the performance if you don't have the access to 
capital. You can't get the access to markets or the access to 
capital if you are not part of the networks.
    So while we may want to say, especially because of the 
legislative component, that Federal procurement may be the 
leading edge, we have to make sure that the fundamentals are 
underneath that to ensure that once you get the contract, you 
can afford to perform on it and you can be part of the networks 
that get you not only that access, but also the relationships 
to allow you to perform.
    Ms. Radermacher. That makes a lot of sense. Thank you.
    Margot?
    Ms. Dorfman. Great. Thank you. First of all, just as an 
aside, the networks also should include the Procurement 
Technical Assistance Centers, because they specifically work on 
the Federal contracting systems and provide that type of 
service.
    As you already know, our first priority is getting the law 
implemented as it was originally intended by Congress 8 years 
ago, and with that taking a look at the SBA and holding them 
accountable for not just the implementation of the program, but 
making sure that the companies that are in there are truly 
women-owned, that the contracts are being put aside for women 
to be able to move forward.
    And then our next big thing is the access to capital piece. 
Our members say that without--once I get the contract, then I 
need the capital so I can turn over the contract and deliver.
    And the third piece that they say, which has not been 
mentioned but is very key to our members, is then we need 
access to affordable health care and other benefits that the 
big boys provide to their employees so that they can be 
competitive, getting the class of employees to deliver on the 
contracts. So those are our three priorities. Thank you.
    Ms. Radermacher. OK. Great. Thank you.
    Actually, is yours up or no?
    Ms. Costello. Yes, it is up----
    Ms. Radermacher. But actually, just quickly, I will allow 
you, Trish, and then also you to speak, as well, and then 
everything else, we will ask you to submit for the record. We 
definitely do want to hear it. We just don't have the time.
    Ms. Costello. I would say that one area that we have not 
talked about but that we see, because in education, we are 
seeing the people 30 and below that are moving up. SBA and the 
Women's Business Centers, because there is never going to be 
enough money. Two-hundred-and-fifty thousand, you are supposed 
to deal with all of this in a regional area. It can't happen, 
will never happen, unless we start seeing huge amounts of 
resources.
    I think we should really--the SBA needs to start looking at 
what they can do within the virtual world and have specialty 
areas, because, you know, I look at the Kansas Women's Business 
Center, that I have been on their board for many years. They 
can't be an expert in five different--you know, from new 
venture creation to micro to procurement. So maybe we could 
have specialty centers that are set up and you can draw on them 
in virtual world, over the Internet, because that is where 
everyone else is going educationally. Everyone is moving that 
way and the Federal government isn't keeping up with that. But 
it will be much more cost effective.
    So I think if we put energy into look at that and into some 
specialization, understanding there are still face-to-face 
networks that our SBDCs should do, but in finding resources, 
and then go to the other end of this and really look at access 
to capital so that we can keep pulling women into the highest 
level and they are going to keep reaching back and pulling the 
next group of women in. Women are good at that.
    Ms. Radermacher. OK. Great.
    Ms. Costello. Those would be my two areas.
    Ms. Radermacher. Thank you, Trish.
    Ms. Herwick. Hi. My name is Rebecca Herwick and I am 
President and CEO of Global Products in St. Louis, Missouri, a 
manufacturing company, and my biggest issue is finding the 
procurement opportunities. I am able to afford a full-time 
staff person who does nothing but update my three different 
codes, classifications, that each of the different divisions of 
the government has. I don't think that a lot of women know what 
their SIC code is, what their NAICS code is, what their FSC 
code is, the matrix of trying to resolve those together and 
then update each of the different divisions of the government 
who has a different maze that you go through to try to find 
your product category. That in itself is a huge problem, just 
finding the opportunities to bid.
    Ms. Radermacher. Great. Thank you.
    Ms. Herwick. Thank you.
    Ms. Radermacher. All right. One last person and then we are 
really done.
    Ms. Adams. OK. They say you always leave the best for the 
last, so I will take that.
    [Laughter.]
    Ms. Adams. OK. I am Juliette Adams and I am a real estate 
investor. I have heard a lot being said about access to capital 
and my question or challenge is how can women be helped to form 
banks or credit unions, form financial institutions so to 
assist with the issue of credit and financing, because I see 
that we are working from like a male structure and women have a 
different way how they do things. Maybe that is why we have 
been talking for 20 years and we will continue to talk for 
another 20 years. There is a touch and a twist as women that we 
have to come to grips with to interject in the systems.
    So especially from the financial institution, I am 
confident there are women who have the expertise, who have the 
desire. How can Congress or how can you assist in really 
getting that going, and then the banks will start to get 
jealous, you know, the competition.
    Ms. Radermacher. Right.
    Ms. Adams. And that can snowball something. Thank you.
    Ms. Radermacher. OK, great. Thank you so much.
    Thank you all for participating. The record is open for 2 
weeks and we would love to have more submitted. Thanks so much.
    Ms. Hadary. I also would just like to take one last comment 
and say thank you on behalf of all of us, all women business 
owners, all 10.1 million women-owned businesses in this 
country, to Karen Radermacher for her passion and her 
leadership in making this happen. Thank you, Karen.
    [Applause.]
    Ms. Radermacher. Well, I just have to say, it is Senator 
Kerry. It is his vision that we seek to carry out, so thank 
you.
    [Whereupon, at 12:25 p.m., the committee was adjourned.]

     


                       STATEMENTS FOR THE RECORD

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
     

                         SUPPLEMENTAL MATERIAL

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

  

                                  <all>

</pre></body></html>
